<html>
<title> - PERCHLORATE AND TCE IN WATER</title>
<body><pre>[Senate Hearing 110-1255]
[From the U.S. Government Publishing Office]





 
                                                       S. Hrg. 110-1255

                      PERCHLORATE AND TCE IN WATER

=======================================================================

                                HEARING

                               BEFORE THE

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 6, 2008

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
  
  


      Available via the World Wide Web: http://www.access.gpo.gov/
                            congress.senate

                               __________
                               
                               
                               
                               
                             U.S. GOVERNMENT PUBLISHING OFFICE
85-531 PDF                       WASHINGTON : 2015                             
__________________________________________________________________________________                               
 For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="86e1f6e9c6e5f3f5f2eee3eaf6a8e5e9eba8">[email&#160;protected]</a>  
                           
                           
                           
                           
                           

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED TENTH CONGRESS
                             SECOND SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     JOHN W. WARNER, Virginia
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
HILLARY RODHAM CLINTON, New York     JOHNNY ISAKSON, Georgia
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             LARRY E. CRAIG, Idaho
AMY KLOBUCHAR, Minnesota             LAMAR ALEXANDER, Tennessee
SHELDON WHITEHOUSE, Rhode Island     CHRISTOPHER S. BOND, Missouri

       Bettina Poirier, Majority Staff Director and Chief Counsel
                Andrew Wheeler, Minority Staff Director
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                          TUESDAY MAY 6, 2008
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     3
Bond, Hon. Christopher S., U.S. Senator from the State of 
  Missouri.......................................................     5
Klobuchar, Hon. Amy, U.S. Senator from the State of Minnesota....    79

                               WITNESSES

Grumbles, Benjamin, Assistant Administrator for Water, U.S. 
  Environmental Protection Agency................................     7
    Prepared statement...........................................    11
Alexeeff, George V., Deputy Director for Scientific Affairs, 
  Office of Environmental Health Hazard Assessment, California 
  Environmental Protection Agency................................    38
    Prepared statement...........................................    40
Responses to additional questions from:
    Senator Boxer................................................    49
    Senator Cardin...............................................    50
    Senator Inhofe...............................................    51
Baker, Mike, Chief, Division of Drinking and Ground Waters, Ohio 
  Environmental Protection Agency, on Behalf of the Association 
  of State Drinking Water Administrators.........................    53
    Prepared statement...........................................    55
Responses to additional questions from:
    Senator Boxer................................................    59
    Senator Cardin...............................................    59
    Senator Inhofe...............................................    61
West, Carol Rowan, Director, Office of Research and Standards, 
  Massachusetts Department of Environmental Protection...........    64
    Prepared statement...........................................    66
Responses to additional questions from:
    Senator Boxer................................................    71
    Senator Cardin...............................................    72
    Senator Inhofe...............................................    72
Lupardo, Donna A., Assemblywoman, 126th District, State of New 
  York...........................................................    81
    Prepared statement...........................................    84
    Response to an additional question from Senator Boxer........    86
    Response to an additional question from Senator Inhofe.......    87
Charnley, Gail, Principal, Healthrisk Strategies.................    88
    Prepared statement...........................................    90
Wiles, Richard, Executive Director, Environmental Working Group..    92
    Prepared statement...........................................    94
Responses to additional questions from:
    Senator Boxer................................................   109
    Senator Inhofe...............................................   111
Hoel, David G., Professor, Medical University of South Carolina..   117
    Prepared statement...........................................   119
    Response to an additional question from Senator Boxer........   137
    Responses to additional questions from Senator Inhofe........   137

                          ADDITIONAL MATERIAL

Statements:
    R. Thomas Zoeller, PhD., Professor, Biology Department, 
      University of Massachusetts Amherst; Background for 
      Perchorate and TCA in Water................................   147
    Environmental Working Group, Perchlorate Timeline 50 Years of 
      Deception and Delay........................................   157
    Urinary Perchlorate and Thyroid Hormone Levels Adolescent and 
      Adult Men and Women Living in the United States............   164
    Jonathan Borak & Company Inc.................................   171
    G. Charnley Health Risk Strategies; Perchlorate: Overview of 
      Risks and Regulation.......................................   178
    Daniel Wartenberg, PhD., Professor and Cheif of Environmental 
      Epidemiology, Department of Occupational and Environmental 
      Medicine, Robert Wood Johnson Medical School, University of 
      Medicine and Dentistry of New Jersey.......................   216
    Environmental Health Perspectives; Evaluation of the U.S. 
      EPS/OSWER Preliminary Remediation Goal (PRG) for 
      Perchlorate in Groundwater: Focus on Exposure to Nursing 
      Infants....................................................   223
Articles:
    ProQuest: The National; How Environmentalists Lost the Battle 
      Over TCE Series............................................   268
    ProQuest: The Washington Post; Dangers of Rocket Fuel 
      Chemical Downplayed; [Final Edition].......................   274
    Pro Quest: The Wall Street Journal; Ground War: Inside 
      Pentagon's Fight to Limit Regulation of Military Pollutant; 
      Rocket Fuel Got Into Water The Issue: At What Level Does It 
      Pose Health Risk; The Meaning of a Rat Study...............   276
    U.S. Food and Drug Administration's Total Diet Study: Dietary 
      intake of perchlorate and iodine...........................   283
    Temporal Patterns in Perchlorate, Thiocyanate, and Iodide 
      Exretion in Human Milk.....................................   295


                      PERCHLORATE AND TCE IN WATER

                              ----------                              


                          TUESDAY MAY 6, 2008

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The full committee met, pursuant to notice, at 10:05 a.m. 
in room 406, Dirksen Senate Office Building, Hon. Barbara Boxer 
(chairman of the full committee) presiding.
    Present: Senators Boxer, Barrasso, Bond, Cardin, Klobuchar, 
Whitehouse.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Good morning. The Committee shall come to 
order.
    Because it is a different type of schedule day today, we 
will have colleagues coming in all through the morning. So what 
I have told Senator Inhofe is that we would keep the record 
open when they come in, and at that time they could either put 
their statement in the record or give their statement. We will 
hold all statements to 5 minutes, and that includes all of our 
panelists as well. We want to thank you all for coming.
    The other issue is, and I have spoken to Senator Inhofe 
about this as well, I have to be briefly running down to give a 
statement on behalf of a bill I have to create or add on to a 
marine sanctuary in California. The moment I have to do that, I 
will have to recess and come right back, so it is a little bit 
or a marathon-type of day for me. So thank you for your 
understanding.
    So we will start the clock at 5 minutes.
    The U.S. Environmental Protection Agency is working on a 
public relations campaign telling us this week that we should 
celebrate National Drinking Water Week. This chart is off of 
their website, to celebrate National Drinking Water Week. 
Great. It is great because when Congress passed the Clean Water 
Act, the Safe Drinking Water Act, and all the landmark laws, it 
was a moment in history that we should celebrate every year.
    However, until EPA sets scientifically based health 
standards for dangerous tap water contaminants and strictly 
enforces the law, it is impossible to celebrate this 
Administration's drinking water record. Slogans and PR 
campaigns are no substitute for action.
    In fact, today we will hear about EPA's particularly 
disturbing failures to address significant risks to our 
families from two widespread drinking water contaminants: 
perchlorate and TCE. Perchlorate is used to make rocket fuel, 
but when it gets into drinking water, this toxic chemical can 
interfere with the thyroid and affect hormone systems which 
control the way the body develops. Infants and pregnant women 
are especially vulnerable to perchlorate.
    Researchers have found that over 20 million Americans safe 
drinking water supplies contain perchlorate. GAO found in 2005 
that there were nearly 400 sites in 35 States contaminated with 
perchlorate. My State of California has 106 sites. The evidence 
of significant exposure to perchlorate and assorted health 
risks has strengthened in recent years. In 2006, scientists at 
the CDC found, and I am quoting the CDC scientists, 
``Widespread human exposure to perchlorate'' in the U.S. in 
young children. They found many women who were exposed to 
perchlorate in their drinking water had significant changes in 
thyroid hormone levels.
    This isn't a game we are playing. This is the health of the 
American people. We know we are exposed to perchlorate from 
many sources, not just drinking water. A January, 2008 study by 
the FDA found perchlorate in 74 percent of all foods tested, 
including baby food.
    What has the EPA done? The answer is very little. In 
December, 2006, EPA revoked its rule requiring some water 
systems to monitor for perchlorate and disclose the test 
results to the public. EPA said it had enough data on 
perchlorate. It had enough data. It didn't need to have anybody 
test the drinking water supplies. It didn't need to have the 
public know because EPA had enough data.
    However, several months later, in May 2007, EPA said, oh, 
really, it didn't have enough data on perchlorate exposure, 
especially from food, to regulate perchlorate in drinking 
water.
    Talk about speaking out of both sides of your mouth. This 
is the perfect case. We don't need to test anymore. We have 
enough information, but we can't set a standard because we 
don't have enough information.
    Even when many water industry officials, like the American 
Water Works Association urge the EPA to set a perchlorate 
standard, EPA refused to do it, flat-out refused. EPA has 
issued a guidance for perchlorate cleanup. That, they have 
done, but based this level on a 154-pound adult whose only 
exposure to perchlorate is from drinking water. Now, that is 
the way we did it in the past. A 154-pound man, what is safe 
for him? And they didn't even do that because they said, we are 
just going to consider the perchlorate from drinking water.
    This guidance fails to protect children and pregnant women. 
It fails to consider the fact that people also are exposed to 
perchlorate in other ways such as through food and milk. EPA's 
Children's Health Protection Advisory Committee said the clean-
up guidance is ``not protective of children's health and is not 
supported by the underlying science and can result in exposures 
that pose neurodevelopment risks in early life.'' That is EPA's 
own Children's Health Protection Agency. It is no wonder you 
hear Bush officials saying, gee, we don't really need that 
office anymore.
    The story for TCE is unfortunately very similar. EPA 
proposed a risk assessment in 2001. It found the chemical could 
be up to 40 times more toxic than previously thought. In 2002, 
EPAEs Science Advisory Board commended EPA's assessment and 
urged the agency to proceed with revising and finalizing it. 
But according to press accounts, the Department of Defense and 
their contractors and OMB, the Office of Management and Budget, 
stopped EPA from moving forward, successfully lobbied for 
delay, and for a National Academy of Sciences report on TCE.
    Now, in 2006, the National Academy of Sciences found that 
evidence of TCE FEs cancer risks had grown since 2001 and 
recommended EPA finalize risk assessments using currently 
available data so that clean-ups can be made expeditiously. Yet 
GAO reported last week that EPA will not finalize its TCE 
assessment until 2010.
    Where is the EPA? A shadow of its former self, doing harm 
to people by not acting. There are lots of words, but no 
action. While the Federal EPA delays or, worse, rolls back 
safeguards, children and families are exposed to dangerous 
toxic chemicals. I told EPA last week that if the Bush 
administration failed to protect our people, Congress will. I 
have two bills to protect people from perchlorate 
contamination. The first bill, the Perchlorate Monitoring and 
Right-To-Know Act, S. 24, says EPA is to restore the rule 
requiring that drinking water be tested for perchlorate and the 
results of those tests be disclosed to the public.
    My second bill, the Protecting Pregnant Women and Children 
from Perchlorate Act, requires EPA to quickly set a perchlorate 
standard for drinking water that protects pregnant women and 
children.
    I wish that everyone who has said in his or her life, our 
children are our future, or I love my grandchildren more than I 
love myself, everyone who has said that, if everyone who said 
that forced their elected officials who have said that to act 
now, it would be the best thing for our Country.
    Senator Clinton, Senator Dole and myself and several 
colleagues also have a bill, the TCE Reduction Act, S. 1911, 
that would protect people exposed to TCE. Congress will not sit 
idly by while EPA fails to adequately protect our children. 
Chuck Schumer has a bill to ban bisphenol-A. Dianne Feinstein 
and I had a bill--it passed--to ban phthalates.
    So this is what is happening because EPA does nothing. We 
must step in to require action that will ensure that our 
children and our families can turn on their taps and be assured 
that what comes out is safe to drink. If we can't do that, then 
shame on us.
    Senator Boxer. Senator Barrasso.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Thank you very much, Madam Chairman.
    As you say, TCE is a carcinogenic industrial solvent. It 
has been used to clean engines and rocket motor parts in my 
home State of Wyoming, primarily by the Department of Defense. 
Wyoming has had an important legacy to the defense of this 
Country, and nuclear missile silos have been in Wyoming since 
the early days of the cold war. Wyoming residents are proud of 
this legacy, but we also believe that the Federal Government 
has a responsibility to leave Wyoming as clean as when they 
found it.
    I have raised the issue, Madam Chairman, with the Army 
Corps of Engineers regarding TCE contamination in the city of 
Cheyenne's water wells at Belvoir Ranch in Wyoming, which is 
west of Cheyenne. The Wyoming Department of Environmental 
Quality believes that this contamination is directly linked to 
a former nuclear missile site known as Atlas D Missile Site 4. 
The missile site is currently listed as a formerly utilized 
defense site. These sites were operational from 1960 to 1965. 
They were the first generation of intercontinental ballistic 
missiles armed with nuclear warheads.
    The Army Corps of Engineers is well aware of TCE leakage 
from this site. In a latter to me, the Corps amazingly stated 
that their information does not support the conclusion that the 
missile site is the cause of the water contamination discovered 
in Cheyenne's nearby wells. The Army Corps suggests, ``the 
potential for the existence of other contributing sources'' of 
the contamination.
    In the same letter, the Corps announced that they will now 
be conducting a study to determine whether there is a 
connection between the missile site and the wells. They will 
now study the historical TCE use in the area.
    Well, given the rural undeveloped terrain of the area in 
question and the historical fact that TCE was heavily used by 
the military in the area, it seems clear that the Government is 
needlessly delaying the technical and financial assistance that 
the city and the State have asked for.
    This problem has been studied for more than a decade. A 
major study was initiated in 1995 during the Clinton 
administration. The map that I have here shows a brown line 
that shows where the Army Corps believes the TCE is. However, 
to the right over here, you can see this dotted line that shows 
where the city of Cheyenne's water wells are. The series of 
brown boxes around this area shows where the Wyoming Department 
of Environmental Quality has tested the groundwater. Fourteen 
of the brown boxes tested positive for traces of TCE. So this 
has all tested positive, and this is where the Army Corps says 
absolutely they realize the TCE plume is moving.
    Given the close proximity of the Atlas missile site to the 
site, common sense would conclude that there is a connection to 
the contamination in the city's water wells. Unfortunately, 
this is not how the Federal Government works. After additional 
meetings with the Army Corps of Engineers, I have been informed 
that additional testing is needed in the area between the city 
FEs wells and the missile site to definitively prove that there 
is a connection. Those tests will be occurring in the next few 
months and we will not know the results until the end of the 
year.
    The city of Cheyenne and the Wyoming Department of 
Environmental Quality are containing the TCE, but they have 
been asking the Army Corps for help. It is an expensive process 
to clean TCE from the water. Currently, that cost is being 
borne entirely by Wyoming taxpayers. The Federal Government, 
through the Army Corps and the EPA should provide technical and 
financial assistance sooner, rather than later. This situation 
needs to be resolved quickly for the betterment of Wyoming 
residents.
    I look forward to the testimony. Thank you, Madam Chairman.
    Senator Boxer. Thank you, Senator.
    Senator Whitehouse.
    Senator Whitehouse. Madam Chair, I will pass. We can go 
directly to the testimony.
    Senator Boxer. Senator Bond.

        OPENING STATEMENT OF HON. CHRISTOPHER S. BOND, 
            U.S. SENATOR FROM THE STATE OF MISSOURI

    Senator Bond. Thank you very much, Madam Chair. Thank you 
for holding this hearing today.
    This hearing allows us to examine the politicization of 
environmental protection, attempts to roll back environmental 
law, and disregard sound science. Now, some may think that I am 
1 day early. That is the goal of tomorrow's hearing, as I 
understand it. However, I would say that before stones are 
thrown today, we should examine the glass house some of us are 
living in today.
    Part of the purpose of this hearing is to establish the 
need for a bill currently before the Senate, S. 150. That 
legislation would require EPA to issue regulations on 
perchlorate levels in drinking water. Sponsors of this 
legislation are well meaning, and I have no question about 
their motives and their concerns. They have the best interests 
of their constituents at heart, but they fail to acknowledge 
that their effort is the very definition of political 
regulation. It is politicians here in the Senate dictating the 
outcome of EPA's environmental decision making.
    And yet in past months and again tomorrow, these same folks 
may be trying to tell us that political officials should not 
tell career scientists and environmental specialists what to 
do. Their perchlorate bill also represents a roll-back of 
environmental law. Ironically, Congress amended the Safe 
Drinking Water Act a dozen years ago to get politicians out of 
the business of deciding which compounds to regulate. The Safe 
Drinking Water Act now includes a specific process designed to 
protect public health. The law specifically requires risk 
assessment and the use of science in decision making.
    Under the law, the Administrator must present information 
to the public and conduct a health risk reduction and cost 
analysis. But advocates would sweep away the environmental law 
and go straight to the conclusion they favor. Apparently, 
rolling back environmental laws are OK with them if and when 
they choose.
    This effort also includes a minimization of the work of the 
National Academy of Sciences. Witnesses will tell us today why 
we should not follow the natural conclusions of an NAS study on 
perchlorate. How many times have we heard charges of heeding 
the advice of political figures instead of peer-reviewed 
science?
    Indeed, 2 weeks ago an NAS study by the National Research 
Council was heralded when it determined that short-term 
exposure to ozone is likely to cause premature death in some 
cases. Two weeks later when the NAS is not so helpful, it 
becomes an inconvenient truth to be minimized or discounted.
    Now, I agree with the sponsors of this hearing that we must 
protect the health of women and children from compounds like 
perchlorate. We must understand the prime pathway perchlorate 
is getting into the bodies of our infants and children, and put 
a stop to that. Studies indicate the primary route is through 
baby food, dairy products and vegetables, and we need to take a 
hard look at regulating that.
    But the decision on whether or not to regulate perchlorate 
in water, as with all of these technical decisions, is best 
left to the scientific experts, using the processes established 
by our environmental law. We should not do as some propose and 
override our environmental law, minimize peer-reviewed science, 
or act by political fiat.
    I join with you in welcoming EPA Assistant Administrator 
Grumbles. I will have some questions for the record for him.
    Thank you, Madam Chair.
    [The prepared statement of Senator Bond follows:]

       Statement of Hon. Christopher S. Bond, U.S. Senator from 
                         the State of Missouri

    Madame Chairman, thank you for holding this hearing today. 
This hearing allows us to examine the politicization of 
environmental protection, attempts to roll back environmental 
law and the disregard of scientific study.
    Some may think that I am 1 day early. That is the goal of 
tomorrow's hearing as I understand it. However, I would say 
that before stones are thrown tomorrow, we should examine the 
glass house some are living in today.
    Part of the purpose of this hearing is to establish the 
need for a bill currently before the Senate, S. 150. That 
legislation would require EPA to issue regulations on 
perchlorate levels in drinking water.
    Sponsors of this legislation are well meaning. They have 
the best interests of their constituents at heart, but they 
fail to acknowledge that their effort is the very definition of 
political regulation. It is politicians here in the Senate 
dictating the outcome of EPA's environmental decision making.
    And yet in past months and again tomorrow these same folks 
are trying to tell us that political officials should not tell 
career scientists and environmental specialists what to do.
    Their perchlorate bill also represents a roll-back of 
environmental law. Ironically, Congress amended the Safe 
Drinking Water Act a dozen years ago to get politicians out of 
the business of deciding which compounds to regulate.
    The Safe Drinking Water Act now includes a specific process 
designed to protect public health. The law specifically 
requires risk assessment and the use of science in decision 
making. Under the law, the Administrator must present 
information to the public and conduct a health risk reduction 
and cost analysis.
    But advocates would sweep that environmental law aside and 
go straight to the conclusion they favor. Apparently, rolling 
back environmental laws are ok with them if and when they 
choose.
    This effort also includes a minimization of the work of the 
National Academy of Sciences. Witnesses will tell us today why 
we should not follow the natural conclusions of an NAS study on 
perchlorate. But how many times have we heard charges of 
heeding the advice of political figures instead of peer 
reviewed science?
    Indeed, 2 weeks ago, an NAS study by the National Research 
Council was heralded when it determined that short-term 
exposure to ozone is likely to cause premature death in some 
cases. Two weeks later when the NAS is not so helpful, it 
becomes an inconvenient truth to be minimized or discounted.
    Now I agree with the sponsors of this hearing that we must 
protect the health of women and children from compounds like 
perchlorate. We must understand the prime pathways perchlorate 
is getting into the bodies of our infants and children and put 
a stop to that. Studies indicate the primary route is through 
baby food, dairy products and vegetables, and so we need to 
take a hard look at regulating that.
    But the decision on whether or not to regulate perchlorate 
in water, as with all of these technical decisions, is best 
left to the scientific experts using the processes established 
by our environmental law. We should not do as some propose and 
override our environmental law, minimize peer reviewed science, 
or act by political fiat.
    Thank you.
    Senator Boxer. Thank you very much.
    Senator Bond, at our last hearing what we learned from the 
GAO is that indeed there is politics in the risk assessment 
process. That was what GAO found within EPA, that they are 
shunting the scientists to the back.
    I also want to say since we will be marking up two 
perchlorate bills in June, and so we will have another robust 
debate at that time, I wanted to mention that we don't set any 
standard. We say follow the science, but act within certain 
timeframe. So we don't set the standard or put politics in it. 
We are just trying to put the science back into it and give 
them a deadline because in your State and my State, and I can 
tell you, I know you alluded to it, people are getting very 
high levels of exposure.
    We want to see action by the scientists. We want to see a 
standard set.
    Senator Bond. Madam Chair, I wouldn't think you would say 
that NAS is putting politics in the science.
    Senator Boxer. No, what I said is----
    Senator Bond. I am referring to the NAS study.
    Senator Boxer. I am talking about the GAO. I am reminding 
you that we had a full hearing on a GAO report that looked at 
the IRIS system and the way risk assessment is being done and 
the fact that EPA is trying to shunt the scientists to the 
back, put the DOD contractors to the front at the table, and 
they said it is very dangerous, GAO.
    On perchlorate, what I am saying to you is, we do not set a 
standard. We ask the EPA to act. We will have that debate.
    Senator Bond. Based on sound science.
    Senator Boxer. Absolutely. So I am going to share that with 
you and hope maybe to win you over.
    By the way, working with you on other issues, if you could 
talk among yourselves for a minute, I am very proud of the work 
we are doing on the veterans.
    Senator Bond. Thank you. We do have strong bipartisan 
cooperation.
    Senator Boxer. Yes, we do.
    Senator Bond. Senator Boxer and I have been working on 
other things. We may have an occasional disagreement.
    Senator Boxer. Once in blue moon.
    Senator Bond. A slight variance here, but we work together 
when it comes to taking care of our wounded heroes coming home.
    Thank you, Madam Chair.
    Senator Boxer. We do. Thank you very much.
    Mr. Grumbles, we look forward to your testimony.

  STATEMENT OF BENJAMIN GRUMBLES, ASSISTANT ADMINISTRATOR FOR 
          WATER, U.S. ENVIRONMENTAL PROTECTION AGENCY

    Mr. Grumbles. Thank you, Madam Chair. It is an honor to be 
here. EPA truly appreciates the opportunity to discuss our 
important work on perchlorate and TCE.
    Madam Chair, since you mentioned it, I do feel it is 
important to say that the agency strongly supports 
environmental education, the use of websites, and getting out 
the word and raising awareness about the importance of source 
water protection and drinking water protection, but it is not 
the only effort or the only tool. The regulatory tool is 
critically important. That is why we are proud that over the 
last several years, we have moved to finalize several 
nationally significant and important drinking water rules.
    I would also say, Madam Chairman, that it doesn't take an 
act of Congress for us. It didn't take an act of Congress for 
us to make a decision to revise the coliform rule which we are 
working on right now. It didn't take an act of Congress for us 
to issue an aircraft drinking water rule. It also didn't take 
an act of Congress for us to revise the lead and copper rule 
based on the knowledge we have learned over the last several 
years.
    But we share a lot with you and have a lot in common in 
terms of the goals and using the framework of the regulatory 
determination process that is set out in the 1996 amendments. 
We are committed to using the best available science to ensure 
our policies continue to protect public health and the 
environment. We are working with other Federal agencies to 
gather and understand data needed to inform our decision 
making.
    This allows us to share the considerable expertise of other 
senior Government scientists, as well as ensure that each 
agency's research and analysis benefit from the findings of 
counterparts who are evaluating similar issues in other 
agencies.
    As you know, we also consult with the National Academy of 
Sciences when we need assistance in evaluating emerging or 
conflicting scientific issues. With respect to perchlorate, as 
has been stated, in 2005 the NAS released a report recommending 
a reference dose. The agency adopted that reference dose. A 
year later, we issued guidance for contaminated sites which 
recommended a revised preliminary remediation goal for 
perchlorate in water. It was calculated using the reference 
dose, which was based on the National Academy of Sciences' 
work. It used standard exposure values of 70 kilograms body 
weight and two liters of water consumed per day. This 
calculation provides the drinking water equivalent level, 
assuming no other sources of perchlorate exposure. But we 
understand, and we have been gathering data that indicates 
there are other sources of exposure.
    Madam Chair, I just want to also underscore the decision we 
made did not continue regulation of unregulated contaminants, 
but not to continue the monitoring of perchlorate. We never 
said it is because we had enough data. What we said was we had 
enough data on occurrence based on the contaminant monitoring 
rule. We have spent the last several years gathering additional 
information on relative sources that contribute to the overall 
determination to make as to whether or not to regulate for 
perchlorate.
    As you know, we need to know that the contaminant is likely 
to cause an adverse effect on the health of persons. We know 
that perchlorate can have an adverse effect and we are 
concerned about that. We have set a reference dose that is 
based on a more protective no-effect level and it is based on 
the most sensitive sub-population, which is the fetus of a 
pregnant woman with iodine deficiency or hypothyroidism.
    Second, we need to determine if the contaminant is known or 
likely to occur in public water systems at a frequency and 
level of public health concern. The results of our regulation 
from monitoring of unregulated contaminants such as perchlorate 
demonstrated that it was detected at levels above four parts 
per billion in 4 percent of the public water systems.
    But we also have to answer the question under the statute 
of is there a meaningful opportunity to reduce risk if we issue 
a new national regulation on perchlorate. We have been spending 
a lot of time on that, Madam Chairman, and we have been 
coordinating with other agencies, CDC and in particular FDA. We 
find it is very important to have the total diet study from the 
FDA. It is the most comprehensive effort to date, we believe, 
on the different sources of contamination and exposure to 
perchlorates such as food, not just water. It provides an 
important additional tool for us to make our determinations.
    I understand your frustration on how long the process is 
taking, but we believe it is important to do the work and we 
intend to issue a final regulatory determination before the end 
of 2008.
    With respect to TCE, as you know, it is a different 
contaminant and we have already been regulating it. We have 
been managing the risk in drinking water for many years. 
Currently, there is a five part per billion standard. We began, 
however, reevaluating the risk assessment for TCE several years 
ago and we also, with other agencies, sought additional 
comments from the Science Advisory Board, and then following up 
on that, from the National Academy of Sciences.
    Right now, we are evaluating TCE, both in terms of 
reevaluating the risk assessment based in information we have 
gotten from the NAS and others. The other thing, Madam 
Chairman, is that my office, the Water Office, is evaluating 
TCE under our 6-year review process under the Safe Drinking 
Water Act. We are analyzing new scientific and technological 
data and information on health effects associated with each 
regulated contaminant such as TCE. We are taking this very 
seriously and we are looking at it very closely.
    The other aspect I want to add is that TCE is prevalent. It 
is a prevalent groundwater contaminant at hazardous waste 
sites, so we are concerned about vapor intrusion and when it 
occurs. We are working with Federal partners, State regulators, 
industry, academia, environmental groups and the general public 
to understand the rapidly developing science of vapor 
intrusion. We are developing recommendations for----
    Senator Boxer. Mr. Grumbles, could you complete? I have let 
you go over a minute and a half, but if you could complete.
    Mr. Grumbles. Yes. So we are developing recommendations for 
interim toxicity values with respect to vapor intrusion.
    In conclusion, Madam Chair, the agency is committed to 
robust protection of public health from contaminants in 
drinking water using the science-based framework. We believe 
this framework is sound and respectfully request that you allow 
us time to complete the required analyses and determinations to 
ensure appropriate science-based protection of public health 
from these and other contaminants as envisioned by the 1996 
amendments.
    We are committed to making a final regulatory determination 
for perchlorate by the end of this year, and for TCE, as soon 
as the necessary analyses have been completed.
    Thank you for your patience and the opportunity to discuss 
this with you.
    [The prepared statement of Mr. Grumbles follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Boxer. Thank you, Mr. Grumbles.
    So you are going to act at the end of 2008. Is it possible 
that EPA could decide not to regulate perchlorate? Is that an 
option?
    Mr. Grumbles. That is an option. That is a distinct 
possibility and we are in the final stages of assessing the 
latest information we have. We would, first, before we issue a 
final determination, we would issue a preliminary determination 
and take public comment on that, Madam Chair.
    Senator Boxer. OK. So it is a distinct possibility that the 
EPA in protecting the public may determine not to set a 
standard for perchlorate? Is that correct?
    Mr. Grumbles. It is. It is a distinct possibility to make 
another determination as well, but that is the stage we are in.
    Senator Boxer. Right. Well, that is what I hear is going to 
happen. That is what I hear. You have a lot of good people over 
there who talk to us. I am just saying if that happens, and you 
can look the American people in the eye and say, we are 
protecting you, no standard. And you have stopped testing. Why 
did you stop testing? Why did you tell the water systems they 
didn't have to test for perchlorate and let people know if 
perchlorate is in their water?
    Mr. Grumbles. After the rounds of the regulations that 
required utilities to monitor for perchlorate, we got a robust 
amount of data from 3,800 systems, and we felt that is a 
sufficient amount of data that can help us to meet one of the 
three statutory requirements under the Safe Drinking Water Act.
    I would note two things, Madam Chair. One is that we can 
still require additional contaminant monitoring if the science 
leads us to that result.
    Senator Boxer. OK. I understand. But you think--you the 
agency--the Government has enough information. Don't you think 
that people who are drinking the water have a right to know how 
much perchlorate is in there? They are not stupid. They read 
the papers. I can imagine what is going on with TCE in Wyoming. 
My friend told me. People are upset.
    Now, you have enough information.
    Mr. Grumbles. But we are not saying we----
    Senator Boxer. Excuse me. EPA said that, you had enough 
information that you didn't have to test anymore. Is that 
right?
    Mr. Grumbles. Well, the important clarification is that we 
felt because we want to get on with the process and make a 
determination on whether or not to issue a new regulation, we 
felt we had sufficient data on one of the three elements, and 
that is the occurrence data. Now, that was based on various 
assumptions. We have never said to any utility, you should not 
test for it, or you should stop testing.
    Senator Boxer. But you stopped requiring it.
    Mr. Grumbles. That is correct.
    Senator Boxer. OK.
    Mr. Grumbles. With the right to re institute that if more 
science comes in.
    Senator Boxer. You always have that right, but EPA said--
and here it is, I will put it in the record--we agree with the 
comments that it is not clear that the agency needs additional 
information on the occurrence of perchlorate in drinking water.
    Now, it is a year and a half since you stopped the testing. 
You still haven't acted. You now say you are going to act at 
the end of 2008, and it is a distinct possibility you could 
conclude you are not going to set a standard. So if that is the 
case, and that is what I believe is going to happen after all 
this folderol, there won't be a Federal standard. The States 
will have to do it.
    People will be completely ignorant of the whole situation 
because they won't be protected by the Drinking Water Act by 
EPA and they won't have the information. It is unbelievable to 
me that at the minimum, at the minimum, you give people 
information. Let them make their judgments. Let them have the 
political information. Let them make it a reason to support a 
Senator or not support a Senator or a President or whatever. So 
I think keeping people ignorance is part of what this is about.
    I just want to ask you something else.
    Mr. Grumbles. But Madam Chair, I just have to say, EPA 
firmly supports getting as much information as we can out there 
on perchlorate. Now, what that means is that it is not just the 
occurrence measurements. It is also getting critical 
information about other types of exposure such as food. So we 
have been spending the time to get that additional information 
because we are concerned. It is not just water, it is food.
    Senator Boxer. Mr. Grumbles, you know what? I was not born 
yesterday, as I keep reminding people. You just have to look at 
me to get it. I was not born yesterday. What is the best way to 
give people information? Let them know if it is in their 
drinking water. Isn't that a lot easier than, oh, go up on our 
website?
    Let me ask you this. You testified that EPA's preliminary 
remediation goal for perchlorate clean-up is based on 
protecting a 154-pound adult. Shouldn't EPA lower this number 
to account for the larger amount of water and food that infants 
and children consume for their body weight compared to adults?
    Mr. Grumbles. It has been very much a part of our 
discussions of the need to revisit the preliminary remediation 
goal as we have spent the last couple of years getting 
additional information, Madam Chair. So my answer to your 
question is that, yes, that is a distinct possibility of 
revising the preliminary remediation guidelines, particularly 
as we have gotten additional information from the Food and Drug 
Administration.
    Senator Boxer. Well, you set the standard in 2006. This 
isn't like it happened many years ago. You set it to protect a 
154-pound male.
    Mr. Grumbles. Right.
    Senator Boxer. And now you are saying, a little while 
later, a year later, because I am questioning you, well, maybe 
you ought to change it.
    Mr. Grumbles. Well, everyone embraces the concept of 
adaptive management. We set a time as quickly as we could.
    Senator Boxer. Adaptive management?
    Mr. Grumbles. That is right.
    Senator Boxer. What does that mean? What does that mean?
    Mr. Grumbles. That means that right after the National 
Academy of Sciences came out with their report, the agency 
shortly after that adopted a reference dose. After the 
reference dose, the heads of the Superfund program realized 
they wanted to have a preliminary remediation goal. So they 
went with the best information available and they made 
assumptions, Madam Chair, about the types of exposure.
    Senator Boxer. Right. Lots of words. Lots of words.
    Mr. Grumbles. The answer to the question is what it means 
is, as you get additional information about food exposure, you 
go back and you look at is the preliminary remediation goal the 
proper number at this point.
    Senator Boxer. Well, let me put in the record your own 
Children's Health Advisory panel made up of scientists--and I 
wish Senator Bond was here--and doctors. I am putting this 
letter in the record. They told Mr. Johnson on March 8th, 2006 
the new PRG is not supported by the underlying science and can 
result in exposures that pose neurodevelopmental risks in early 
life. So don't give me you are just learning this, when your 
own people----
    [The referenced document follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Grumbles. That was another aspect to it, ma'am.
    Senator Boxer. Excuse me. I am speaking. Excuse me.
    You know why I get so angry with you? It is not a personal 
anger. It is because you say things that are not backed up by 
the facts. You say as you get additional information you are 
going to get tougher. You have that information from your own 
panel. They told you what you were doing was dangerous. And now 
you are sitting here under, I would agree, hostile questioning 
from me and saying, oh yes, Madam Senator, we are going to take 
another look at it. I just don't buy it.
    Mr. Grumbles. I think to be fair, you ought to allow me the 
chance to say----
    Senator Boxer. Well, let me finish. I am giving you a 
chance.
    Mr. Grumbles [continuing].--that the reason, one of the 
areas of concern they had, and it is not just with EPA, but it 
was with the National Academy of Sciences, was the focus on 
what is the most sensitive sub-population. That wasn't the 
preliminary remediation goal discussion. It was focused on the 
reference dose and how the agency got to its DWEL, the drinking 
water equivalency level.
    So there has been a very robust debate, Madam Chair, as to 
what is the most sensitive sub-population. I think part of the 
concern that the Children's Health Advisory group had was that 
we ended up adopting the perspective of the National Academy of 
Sciences and indeed, the fetus of a pregnant woman.
    The other issue I was trying to get at and explain on 
adaptive management, Madam Chair, was that the preliminary 
remediation goal when it was set, it was also based on an 
assumption of the data that we had. They made the assumption 
that 100 percent of the contamination source would be coming 
from water, and we are in the agency discussing it. Well, we 
know that food is another significant source. So that is what I 
meant by the need to embrace adaptive management.
    Senator Boxer. Well, I am going to turn to Senator 
Barrasso, but I am going to read you some more of this letter.
    Mr. Grumbles. OK.
    Senator Boxer. Because the things that you say just don't 
comport with the facts. Your own Children's Health Advisory 
Committee, made up of scientists, told you, told Stephen 
Johnson, told the world in this letter, that the standard you 
had set for the clean-up was not good enough. I said, I read 
before, it is not protective of children's health. And you tell 
me adaptive management--let's see, what does that mean? You set 
a standard in a low way and you get caught at it, and you get 
called before a Senate Committee that you might have to adapt 
and go back?
    I am sorry. I find it cynical. Let me read the rest of 
this. The Children's Health Advisory Panel finds it disturbing 
that this change in the PRG was made without dissemination of a 
decision support document or any opportunity for public input. 
We recommend that OSWER lower the PRG, taking into account 
infant exposure and susceptibility. They are very concerned, 
and this letter states it.
    You don't have to wait for anything else. These are the 
people that you are supposed to rely on. Supposed to rely on. 
So I can only say to you----
    Mr. Grumbles. Can I say one more important----
    Senator Boxer. Let me finish, please, and yes, then you can 
respond.
    I can only say to you that your explanation here today 
doesn't make any sense. Oh, you have to wait for science, when 
your own scientists who care about children have already told 
you. And you have admitted you may not even set a standard for 
perchlorate, and you don't think that having the ordering, if 
you will, requiring water systems to test for perchlorate 
really is a good idea.
    So everything I add up says to me danger, flashing red 
light for the public. Again, EPA, the shadow of its former 
self, celebrating our great drinking water, and in the back 
rooms here derailing what your own scientists want to do to 
protect kids. It is very disturbing.
    Yes, sir?
    Mr. Grumbles. Thank you. I just simply wanted to say that 
the relationship we have with the Children's Health Advisory 
Board is an important one. I said it is a distinct possibility, 
Madam Chair, that we might determine not to regulate 
perchlorate. It is also--and this is important--it is also a 
distinct possibility that we may issue a health advisory. And 
part of the dynamics that are involved in that is over the last 
couple of years we have gotten a lot more information, 
supplementing the National Academy of Sciences, about potential 
risks to children or infants. So that is important to us.
    We also have made clear from the beginning, Madam Chair, 
that our goal was to make a final determination by this year, 
and that we had enough occurrence data. We also realize we may 
need to revise that approach in terms of monitoring in the 
future, just like with any emerging contaminant.
    Senator Boxer. OK.
    Mr. Grumbles. Thank you.
    Senator Boxer. Well, I would like you to know that my State 
has enough information, and they do have a perchlorate 
standard.
    Senator.
    Senator Barrasso. Thank you very much, Madam Chairman.
    Thank you, Mr. Grumbles.
    I think you started your testimony before you got to your 
written remarks, talking about that it doesn't take an act of 
Congress to, and then you went through a number of things, lead 
and copper, airline drinking water. Is that your concern with a 
bill like this, that we don't really need an act of Congress on 
this? I am kind of getting that as a sense of what you are 
saying here today.
    Mr. Grumbles. We think congressional oversight of the 
agency as it moves through this regulatory process is 
critically important, but when it comes to legislating a 
specific decision on whether or not to regulate and to set a 
very aggressive timeframe schedule, we have serious concerns 
about that. So Senator, that is the point, is that we have 
concerns about a legislative directive that overrides the 
current regulatory framework for decision making.
    Senator Barrasso. I wanted to get back to the issue I was 
talking about earlier with Cheyenne, Wyoming. As the support 
regulatory agency, I would ask that you please look into this 
matter and help clear up the bureaucratic red tape so that the 
Wyoming Department of Environmental Quality can get the 
assistance that they are requesting to help with the issues 
that I have addressed.
    Mr. Grumbles. Senator, most certainly we will look into 
that.
    Senator Barrasso. And then with my remaining time, as you 
have been collecting your thoughts, is there anything else you 
would like to add that you haven't had a chance to say here in 
some of the dialog?
    Mr. Grumbles. Well, we feel that it is important to take 
both perchlorate and TCE very seriously. On perchlorate, the 
scientific issues that surround the health effects and also if 
there is a meaningful opportunity to reduce risk to human 
health as required under the Safe Drinking Water Act, that is 
where we have been spending our time over the last several 
years because we recognize it is widespread. It does have risks 
to health, as the National Academy of Sciences and others have 
confirmed.
    So we are committed to going through the process, to 
working with Congress, and making sure that a science-based 
decision is made.
    On TCE, we have been regulating it for some time. We are 
aggressively pursuing additional guidance on vapor intrusion 
and the reevaluation of the risks, given the scientific issues 
evolving over the degree to which cancer is caused by TCE. It 
is a priority issue as well for us. In the Drinking Water 
Office, Senator, we are committed to reviewing it and other 
contaminants for potential further regulation under our process 
of the Safe Drinking Water Act.
    Senator Barrasso. So it is your concern, then, that with 
the current Safe Drinking Water Act and how to regulate water 
contaminants, that this bill may override that Safe Drinking 
Water Act in terms of the listing process and others?
    Mr. Grumbles. Well, it would. It would. And we understand, 
and Congress has used its prerogative to direct the agency to 
regulate specific named contaminants in the past. We see the 
value, and I think many others see the value, in the 1996 
framework, the 1996 Safe Drinking Water Act Amendments that 
said rather than identifying specific ones or having to 
regulate an X number by X years, you go through a systematic 
process.
    The downside, Senator, is that systematic process can take 
some time because we have three statutory criteria that we need 
to go through. And we need to make sure pursuant to the statute 
that it is the best available peer-reviewed science. So it 
takes some time, but we think that overall it is an excellent 
framework and we would just urge caution to members in 
legislative directives that picks which of the 60 or 50 
contaminants to regulate, and sets a timeframe that may be so 
ambitious that may not result in a legally sustainable final 
product.
    Senator Barrasso. So you are working with groups like the 
Food and Drug Administration and the Center for Disease 
Control, in determining what is best for our children and ways 
to protect them?
    Mr. Grumbles. We have been working with them and other 
agencies and scientific organizations. We are spending a lot of 
time lately with the Food and Drug Administration and the bio-
monitoring study that CDC did was an important one.
    Senator Barrasso. Madam Chair, I have no further questions.
    Senator Boxer. I am going to put the rest of my questions 
in writing to you.
    I am going to just close with this. Senator Barrasso, thank 
you very much for showing us the TCE problem in your State. I 
am going to ask unanimous consent to place into the record a 
list of the contaminated sites throughout this Country. There 
are 45 States that have a problem with TCE. We need a more 
protective standard there.
    There are also 11 Superfund sites contaminated with TCE, 
where human exposure is not under control. The source of this 
is the EPA. So you have a situation here where you have sites 
where human exposure is not under control and we have TCE in 45 
States, 321 Superfund sites in 45 States and territories 
contaminated with TCE. You can't drag your feet anymore.
    I would say for perchlorate, you have 35 States that have 
perchlorate in the water at serious levels. You already have 
your Children's Health Protection Advisory Committee saying you 
are not doing enough. You have American Water Works 
Association, Association of Metropolitan Water Agencies--and 
this gets to Senator Barrasso's point--they have urged EPA to 
set a perchlorate standard for drinking water. These are not 
environmental organizations. The American Water Works 
Association, the Association of Metropolitan Water Agencies, 
they want a standard.
    I think it gets to Senator Barrasso's very important point. 
Is it better for EPA to act or is it better for Congress to 
act? Well, let me answer that question. EPA should act, if it 
was the Environmental Protection Agency, but they are not doing 
it. That is the problem. I mean, go and tell Senator Feinstein 
to wait until you deal with phthalates. Go and tell Senator 
Schumer to deal with other chemicals. People are just not going 
to listen, and people like Senator Barrasso, who is a very 
patient man, I think he wants action here in terms of clean-up 
for his State.
    The point is, your answers--and I am speaking only for 
myself--are just very light. They don't give me any comfort at 
all. As a matter of fact, they even make me more concerned, 
hearing that we may not have a standard. The fact of the matter 
is, there are sites that are out of control here. Your own 
scientists have told you to act. Now, we know a couple of 
States have acted on perchlorate.
    That is the other thing that is going to happen, Senator. 
The States are going to start setting standards. Right now, I 
know California has six, Massachusetts has two, and many other 
States are waiting. So we are going to have a patchwork quilt.
    In the meantime, consumers of water don't know how much 
perchlorate is in their water because the EPA decided it wasn't 
necessary. So if they go down the path where they are not going 
to set a standard at the end of the day, which is a quote, 
``distinct possibility,'' and plus they are not requiring 
testing, our people are in the dark without any help, and we 
are talking about very dangerous chemicals here.
    So thank you for coming. We will give you a bunch more 
questions in writing, and we call up the next panel. Thank you, 
sir.
    Mr. Grumbles. Thank you.
    Senator Boxer. I want to welcome panel two.
    George Alexeeff is Deputy Director for Science Affairs, 
Office of Environmental Health Hazard Assessment from my great 
State of California. We welcome you.
    Mike Baker is Chief, Division of Drinking and Groundwater, 
Ohio EPA, on behalf of the Association of State Drinking Water 
Administrators.
    Carol Rowan West is Director, Office of Research and 
Standards, Massachusetts Department of Environmental 
Protection.
    So we are going to ask you to keep your opening statements 
to 5 minutes, and we will begin with you, Dr. Alexeeff.

STATEMENT OF GEORGE V. ALEXEEFF, DEPUTY DIRECTOR FOR SCIENTIFIC 
  AFFAIRS, OFFICE OF ENVIRONMENTAL HEALTH HAZARD ASSESSMENT, 
           CALIFORNIA ENVIRONMENTAL PROTECTION AGENCY

    Dr. Alexeeff. Thank you, Madam Chair and members of the 
Committee for the opportunity to testify on perchlorate and TCE 
in water. I am George Alexeeff, Deputy Director for Scientific 
Affairs for the Office of Environmental Health Hazard 
Assessment, which we refer to as OEHHA, in the Environmental 
Protection Agency of California.
    As part of our duties under the California Safe Drinking 
Water Act, OEHHA develops public health goals, or PHGs, for 
drinking water. Perchlorate has been detected in hundreds of 
drinking water sources in California. Perchlorate inhibits the 
uptake of iodide, an essential nutrient, by the thyroid gland. 
Inadequate iodide uptake disrupts proper thyroid function. 
Thyroid hormones such as T4 and T3 help regulate growth and 
maturation of tissues, particularly the brain.
    Disruption of these hormones can lead to impaired 
development in fetuses. Several epidemiologic studies indicate 
that iodide deficiency during pregnancy may affect brain 
development and may cause intellectual deficits in children.
    Our review of the scientific literature found that the 
fetuses of pregnant women are the most sensitive population to 
perchlorate's health effects. Impairment of thyroid function in 
expectant mothers may affect the brain of the fetus, resulting 
in delayed development and decreased learning capacity.
    In 2004, OEHHA published a public health goal for 
perchlorate in drinking water of six parts per billion. The 
level was adopted as the State's drinking water standard. 
OEHHA's draft perchlorate assessment underwent two rounds of 
independent peer review by the University of California 
scientists, as well as several public comment periods. We based 
our PHG on a controlled human study referred to as the Greer 
study, which contained the best data for assessing 
perchlorate's health effects. However, this study was limited 
because there were only 37 subjects. To ensure we did not 
underestimate the chemical's effects on pregnant women and 
fetuses, we added a tenfold margin of safety. Our PHG also took 
into account the higher water consumption rate of pregnant 
women and the potential for perchlorate exposure from food.
    In 2005, the National Academy of Sciences recommended a 
similar approach. In 2006, the CDC released a major national 
study which supports the concerns that we identified. The CDC 
study found that in women, perchlorate exposure was associated 
with changes in thyroid hormone levels. The thyroid hormone 
level changes were consistent with the expected effects of 
perchlorate. OEHHA evaluated this data and published a 
confirmatory article.
    I will now turn to TCE. Over 350 drinking water sources in 
California have reportable levels of TCE contamination. Cancer 
is the primary health effect of concern from TCE exposure. 
Animal studies indicate that TCE induced liver and lung 
carcinomas in mice. Kidney tumors were reported in male rats. 
The National Toxicology Program has concluded that TCE is 
reasonably anticipated to be a human carcinogen.
    Over the past 20 years, California has treated TCE as a 
carcinogen. In 1988, California listed TCE as a chemical known 
to the State to cause cancer. In 1990, TCE was listed as a 
toxic air contaminant based on carcinogenic effects. In 1999, 
OEHHA published a public health goal of 0.8 parts per billion 
of trichloroethylene in drinking water.
    In developing this PHG, we reviewed the animal studies and 
the limited human studies. Our risk assessment confirmed that 
this chemical is a potential human carcinogen. We have followed 
the U.S. EPA cancer review process with great interest and 
awaited the publication of the National Academy of Sciences' 
report released in 2006. We note that the NAS concluded that 
the evidence on carcinogenic risk and other health hazards from 
exposure to trichloroethylene has strengthened since 2001.
    I hope this summary gives you a better idea of why 
California has concerns about perchlorate and TCE in water, and 
how we have identified the level of risk to public health.
    Thank you for giving me this opportunity to testify before 
you today.
    [The prepared statement of Dr. Alexeeff follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Boxer. Thank you very much.
    Mr. Baker, welcome.

STATEMENT OF MIKE BAKER, CHIEF, DIVISION OF DRINKING AND GROUND 
WATERS, OHIO ENVIRONMENTAL PROTECTION AGENCY, ON BEHALF OF THE 
       ASSOCIATION OF STATE DRINKING WATER ADMINISTRATORS

    Mr. Baker. Thank you and good morning, Madam Chairman and 
Committee members. I am Mike Baker. I am Chief of the Division 
of Drinking and Groundwaters at the Ohio Environmental 
Protection Agency. I am also the President-elect of the 
Association of State Drinking Water Administrators, also known 
as ASDWA. ASDWA supports and represents the collective 
interests of States, territories and the Navajo Nation in our 
administration of national drinking water requirements. I am 
pleased to be here today to offer testimony on ASDWA's behalf.
    Overall, ASDWA supports the fundamental construct of the 
Safe Drinking Water Act as it relates to determining which 
contaminants are likely to occur in drinking water and whose 
regulation would provide a meaningful opportunity for health 
risk reduction.
    An underlying tenet of the act is that standard-setting 
should be driven by sound science. That includes robust data on 
the occurrence of contaminants, information about the abilities 
of these contaminants to cause health effects, information 
about technologies and costs to remove or reduce these 
contaminants, and the expected benefits of doing so.
    We do appreciate this Committee's concerns about 
perchlorate and TCE. We are, however, concerned about the 
precedent of using legislative action that supersedes the 
provisions of the statute for a particular contaminant. Recent 
media stories about pharmaceuticals in personal health care 
products in our sources of drinking water are one example 
highlighting the need for a rational scientific-based approach 
to determining which contaminants should be regulated and at 
what levels.
    In my own State of Ohio and a few other States, we are 
grappling with another type of emerging contaminants, PFOA, one 
of several flouropolymers used for decades by a variety of 
manufacturing processes. This particular compound is being 
detected in the environment, animals, and people around the 
world. Customers of an Ohio public water system contaminated by 
PFOA have the highest level of this chemical ever detected in 
humans. Clearly, we are very concerned about any of these 
compounds being in our drinking water at unsafe levels.
    We expect to see more and more emerging contaminants. We 
live in a society that uses a myriad of chemicals. That fact, 
coupled with our increasing ability to detect contaminants at 
low levels, will undoubtedly raise additional concerns about 
the safety of our drinking water. Therefore, unless a 
transparent scientific approach is used, we are concerned EPA 
will jump from one contaminant to another based on media and 
political attention, rather than on meaningful public health 
gains.
    States do agree that EPA needs to make timely decisions on 
contaminants of concern. Public health protection depends on 
sound and timely decisions. As my colleagues on this panel have 
and will describe, in the absence of timely decisions by EPA, a 
few States can and do establish their own standards. Most 
States, however, simply do not have the necessary resources, 
nor the expertise, and we depend on EPA for timely decisions.
    In the case of perchlorate and TCE, EPA should be held 
accountable for describing what data and information, if any, 
is lacking to support a regulatory decision and make decisions 
about whether or not to further regulate as rapidly as 
possible.
    All of us at the Federal, State and local levels, have 
important roles to play to ensure people have access to safe 
and affordable drinking water. This includes preventing 
contaminants from reaching the source of our drinking water in 
the first place. For Congress, an important role is to ensure 
adequate funding to support research so that information about 
contaminants is available when it is needed.
    We must also keep in mind regulations come with a cost 
burden to State drinking water programs, public water systems, 
and their customers. Many States and water utilities are 
already struggling to meet the demands of current regulations. 
We appreciate your support for the Drinking Water State 
Revolving Loan Fund and respectfully recommend more funds be 
appropriated to support a growing infrastructure need.
    Additional Federal dollars are also needed for State 
drinking water programs to carry out Federal regulatory 
requirements. Current funding levels, which have remained at 
roughly the same levels for over a decade, during the same time 
States have had to adopt over 15 Federal regulatory 
requirements, is simply inadequate and needs to be increased. 
States and public water supplies need your support.
    I thank you for the opportunity to offer testimony and 
would be pleased to answer any questions.
    [The prepared statement of Mr. Baker follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Boxer. Thank you very much, Mr. Baker.
    And now we are going to hear from Carol Rowan West, 
Director, Office of Research and Standards, Massachusetts 
Department of Environmental Protection. Welcome.

STATEMENT OF CAROL ROWAN WEST, DIRECTOR, OFFICE OF RESEARCH AND 
STANDARDS, MASSACHUSETTS DEPARTMENT OF ENVIRONMENTAL PROTECTION

    Ms. West. Thank you, Chairman Boxer and Committee members, 
for the opportunity to testify today on the issue of 
perchlorate in drinking water. As a scientist and Director of 
the Office of Research and Standards at the Massachusetts 
Department of Environmental Protection, I have spent over 15 
years evaluating the toxic effect of chemicals and setting 
standards that are protective of public health.
    I have no doubt that perchlorate is a chemical that should 
be regulated in the Nation's drinking water supply, given the 
fact that this chemical is one that affects the thyroid gland 
and can effect the levels of thyroid hormones that are needed 
for the proper development of the brain in the fetus, infants 
and young children. The health effects of perchlorate are well 
known and are based on sound science.
    The Commonwealth of Massachusetts' work on perchlorate 
began in 2001, when perchlorate was detected in the groundwater 
at 600 parts per billion at the Massachusetts Military 
Reservation on Cape Cod. The contaminated groundwater plume 
migrated to nearby public water supply wells. Given the lack of 
Federal and State standards for perchlorate and the potential 
for perchlorate to affect brain development in children, we 
felt compelled to set a drinking water standard. We promulgated 
a two parts per billion perchlorate standard in 2006 based upon 
a thorough review of all the scientific information along with 
an independent review by an external scientific advisory 
committee.
    After all of the public water supplies were tested in 
Massachusetts, we found a number of unanticipated situations 
including perchlorate levels as high as 1,300 parts per billion 
in one public water supply. We found that all of the 
contaminated public water supplies were from non-military 
sources of perchlorate, including blasting, fireworks and 
sodium hypochlorite, a chemical that is used to treat and 
disinfect drinking water.
    As mentioned earlier, there appears to be sufficient 
evidence that there is widespread contamination of perchlorate 
in the United States. Surveys show that 26 States and two 
territories have perchlorate in their drinking water, and 37 
States and territories have approximately 400 hazardous waste 
sites with perchlorate present in them.
    In addition, there are new studies that demonstrate the 
pervasiveness of perchlorate exposures to the American public, 
raising issues regarding human safety. The Food and Drug 
Administration has found that 59 percent of the total food 
samples tested contain perchlorate, including baby food. The 
FDA estimated that children the age of 2 years old would 
receive the highest intake of perchlorate a day. At this age, 
the brain is rapidly growing and it puts these young children 
at risk, especially given the fact that the amount of 
perchlorate from water and from food may go over the level of 
producing thyroid hormone level alterations that could affect 
brain development.
    A very recent study just published on Boston women and 
breast milk contamination with perchlorate found that all 49 of 
the women tested had perchlorate, and the levels ranged from 
1.3 to 411 parts per billion. And last, as mentioned earlier, 
the Centers for Disease Control has found through its national 
survey that perchlorate is pervasive in the American public and 
that in the high-risk group of women with low iodide intake, 
that they are finding alterations in thyroid hormone levels.
    All of these studies indicate widespread contamination and 
exposure to perchlorate in both water and the food supplies of 
Americans. The benefits of having a national perchlorate 
drinking water standard are that all of the public water 
supplies will be tested so we will have complete information. 
Then action can be taken to treat the water to protect 
children's health. We recommend that the U.S. EPA should take a 
leadership role to set a perchlorate drinking water standard 
which protects children's health. Perchlorate contamination is 
a national issue and national action is needed. Federal action 
will lead to consistent protection of children's health across 
the United States. And last, the clean-up of water supplies and 
sites has the additional benefit of also decreasing the levels 
of perchlorate in food, including breast milk.
    Thank you for the opportunity to testify. I will be pleased 
to answer any questions you might have.
    [The prepared statement of Ms. West follows:]
    [GRAPHICS NOT AVAILABLE TIFF FORMAT] 
    
    Senator Boxer. Thank you.
    Ms. West, can you explain for us what are the results of 
too much perchlorate in terms of the thyroid? What actually 
happens and how does it impact a pregnant woman and how does it 
affect the fetus?
    Ms. West. When women are pregnant, they have a lot of 
stress on their thyroid gland. They sometimes also have a lower 
amount of dietary iodide in order to make thyroid hormones. So 
when pregnant women are exposed to perchlorate, their thyroid 
hormone level is reduced.
    Now, the fetus depends on thyroid hormone levels from the 
mother, and when the mother is exposed, she may not be able to 
provide the necessary levels of thyroid hormone to the fetus. 
In early life stages of the fetus, they aren't producing any 
thyroid hormone whatsoever, so they are totally dependent on 
what the mother can deliver. So if the mother isn't making 
enough thyroid hormone, it is going to have an impact on the 
brain development of that child.
    Senator Boxer. So this is very serious. You said in some 
systems there are 411 parts per billion that has been found?
    Ms. West. In one breast milk sample from Boston, 
Massachusetts, where we do not have perchlorate in our drinking 
water. May we add: However, here the perchlorate exposure is 
from food that has taken up perchlorate from contaminated 
water.
    Senator Boxer. Doctor, do you want to add to any of those 
adverse impacts, or did Ms. West pretty well cover it?
    Dr. Alexeeff. I think she covered it very well. I would 
just add that perchlorate also prevents iodide from 
transferring to the placenta through the fetus, and also it 
blocks iodide transfer to breast milk for the newborn.
    Senator Boxer. And that could result in developmental 
disabilities?
    Dr. Alexeeff. That would add to the effect of perchlorate 
itself. So there is a perchlorate effect on the thyroid of 
either the newborn or the fetus and the mother, as well as the 
lower amount of iodide.
    Senator Boxer. Well, I am going to talk to Mr. Baker 
because I think his approach--I understand where he is coming 
from. I don't agree with his conclusion, but I think your mind 
might be open to the few things that I say here. First of all, 
here is the problem. To say that Congress shouldn't get 
involved, it is a bad precedent, I hear you. I don't want to 
get involved. I don't want to. Senator Klobuchar doesn't want 
to. Senator Lautenberg and Senator Clinton and those of us who 
are working on this Committee to protect our people don't want 
to. We want the EPA to act.
    Now, we hear today from two very straightforward witnesses 
with no axe to grind, they are not politicians, they are 
experts on health, that what can happen if there is too much 
perchlorate in the water, it is very, very serious for a 
pregnant woman and her fetus, and could have devastating 
impacts, and for all we know probably is having devastating 
impacts as we speak because there is no standard.
    So what happens is, we have information dating back, well, 
probably 20 years, but we know since 1992 EPA has talked about 
the proper standard for perchlorate. Listen to this. This is 
dated January 25th, 2002. I want to thank my staff for finding 
this out here. ``A long-awaited U.S. EPA draft toxicological 
report issued on January 18th finds that perchlorate is likely 
to be more harmful to human health than previously thought.'' 
EPA, 2002. In response to the report's conclusion that 
perchlorate concentrations of less than one part per billion 
are safe for human consumption in drinking water, the 
California Department of Health reduced its advisory action 
level from 18 parts per billion to 4 parts per billion.
    So the work of EPA in the past in letting folks know the 
danger has led to State action. Very good. But why do we hear 
today--and Senator Klobuchar may be shocked to hear this--that 
our EPA witness said--what were his words?--it is a distinct 
possibility that they may come out with no standard whatsoever 
for perchlorate.
    So here is where we are, and this is where I want to talk 
to Mr. Baker and try to get him to see it a little bit 
differently. When you talk about it is a bad precedent for 
Congress to move in here, I say to you I don't want to go down 
that road, but we have already gone down that road. Senator 
Feinstein and I had an amendment that passed the Senate pretty 
overwhelmingly, I don't remember the exact vote, to ban 
phthalates. Why? EPA does nothing.
    Are we supposed to sit back and say it is bad precedent to 
do this? Or are we going to protect the people? That is the 
issue here. I agree. Legislation to get into protecting the 
people chemical by chemical isn't my favorite way to go. I want 
to get an EPA that does something. It would be a lot easier on 
us here so we don't have to sit and have these kinds of 
hearings. We also have the Children's Health Advisory Panel 
tell the EPA that they are not doing enough, that they are very 
worried.
    So you can't tell me, Mr. Baker, with all due respect, that 
if I care so much about my people that I am willing to push for 
this standard, and we are not setting the standard, we are just 
saying to EPA get off your delay and do this. That is what our 
bill says.
    First, we say we should test for it and let the public 
know. And second, we say, you should set a standard by a date 
certain because this thing is going. If I told you, for 
example, that this President or some other President woke up 
some morning and just acted in my view irrationally and said, 
we are by executive order temporarily suspending all 
environmental protection laws because it is in the best 
national security of our Nation to do it. Let's say, you know, 
Presidents do things we don't agree with. Obviously, I don't 
think you would say, Congress, don't get involved. I mean, at 
some point when nothing gets done, we are accountable to the 
people that we represent. Now, I know that your drinking water 
association doesn't support having a standard set for 
perchlorate, but I am sure you know the American Water Works 
Association and the Association of Metropolitan Water Agencies 
has urged that EPA set a perchlorate standard. I think it is 
unusual to see someone who has to deal with this take this kind 
of attitude. I respect you and you have every right to, but if 
I look at Ohio, you should see, you are the 12th worst State 
for TCE. You have perchlorate. You have TCE and you are the 
12th worst State for TCE.
    So I guess what I want you to think about is this. The 
minute we set a standard here, you will be eligible for some 
clean-up funds. I agree with you completely that there is not 
enough funding. We are spending $5,000 a minute in Iraq, you 
would think we would have some funding to help you clean this 
up. That is a whole other debate. But I wonder if you would 
think about this, that by backing the EPA in this foot-
dragging, you are putting off the day when you could be 
eligible for funds to clean up your water supply, and you are 
not protecting the people that you serve very well either.
    So I just wonder if you would be open to reconsideration 
and perhaps join with the largest water utility and trade 
associations, two of the largest, and urge them to set a 
standard, EPA to set a standard.
    Mr. Baker. Madam Chairman, certainly as an administrator of 
a State drinking water program, along with my other colleagues 
that have that responsibility, we share the concern about any 
contaminants that are in our water supplies at an unsafe level.
    One clarification, it is not ASDWA's position that we are 
opposed to EPA establishing a standard. It may very well be 
that after looking at the occurrence data through the UCMR, the 
studies by the NSA, the studies by the Food and Drug 
Administration, the information generated by other States, that 
a standard for perchlorate is an appropriate action.
    We also believe they have the building blocks in place at 
this point in time to make a regulatory decision. We certainly 
hope and encourage them to make that decision very, very soon. 
So we share that, but we continue to have the concern that if 
we use legislative action to set the standard for perchlorate 
and TCE now, then with the myriad of chemicals that we know are 
out there, we know are starting to show up in our drinking 
water supplies, we know, as we are able to detect them at very 
low levels, we are going to raise additional questions. We just 
think we need to use the appropriate structure in place that we 
vett all of these chemicals through in making those decisions 
about what to regulate.
    Senator Boxer. So you want them to set a standard?
    Mr. Baker. We want them to make a decision on it very 
quickly.
    Senator Boxer. Well, good, then you should back my bill 
because that is exactly what we are saying. We say set a 
standard by a certain date.
    The last thing I want to do is put into the record, and 
then I will turn to my colleague, an article that appeared--and 
this is really important--on April 28th, 2003. This whole 
stonewalling that we saw here from the EPA is not news. The 
headline in The Wall Street Journal back then was, EPA bans 
staff from discussing issue of perchlorate pollution. The 
Pentagon and several defense contractors who face billions of 
dollars of potential clean-up liability vehemently oppose EPA's 
high health risk assessment, arguing perchlorate is safe at 
levels 200 times higher than what the EPA says is safe. The 
Bush administration has imposed a gag order on the U.S. 
Environmental Protection Agency from publicly discussing 
perchlorate pollution even as two new studies reveal high 
levels of rocket fuel may be contaminating the Nation's lettuce 
supply.
    [The referenced material was not received at the time of 
print.]
    Senator Boxer. So I think the reason we were so interested 
in having this hearing is what you are seeing here today from 
the EPA is just a continuation of the stonewall. The reasons we 
are going to have some action on this in June once we complete 
our global warming on the floor is because a lot of us have had 
it. We agree, Mr. Baker, they should do it. They should do it 
according to the science, and that is just what our bill says.
    And last, last, last, thank you to California and 
Massachusetts. You have been leaders. I just so respect what 
you are doing.
    Senator Klobuchar.

           OPENING STATEMENT OF HON. AMY KLOBUCHAR, 
            U.S. SENATOR FROM THE STATE OF MINNESOTA

    Senator Klobuchar. Thank you very much. And thank you, 
Chairwoman Boxer, for holding this hearing.
    In Minnesota, thankfully, we haven't found a lot of 
perchlorate contamination, but we also haven't done a lot of 
testing, so it is possible we may have a problem we don't know 
about. I will tell you that we do have a number of TCE 
contamination sites, and we also have hundreds of smaller TCE 
contamination sites. These clean-ups have been carried out on 
TCE, but it has been described to me by our water experts that 
it takes a long time to get rid of it. No matter how many times 
you rinse it, it is kind of like cleaning a greasy pan with 
cold water. It is estimated that it will take 25 years to break 
down.
    But I want to get to the topic you all have testified 
about, and follow up on some of Chairman Boxer's questions.
    Ms. West, I was struck by your testimony about all of the 
scientific work that you have had to do in Massachusetts at the 
State level. One of my concerns here as I look at all of these 
issues, whether it is climate change or whether it is the 
regulation of these dangerous substances, that more and more 
work has been pushed to the State level without the resources 
to go with it, especially for instance in the climate change 
area. It gets absurd because you have 33 States trying to form 
together to do a climate registry because nothing has been done 
on the national level.
    Could you talk a little bit about the burden that has been 
placed on your State? Have you gotten the resources for it in 
terms of trying to set some standards for perchlorate?
    Ms. West. Well, just going back a little bit historically, 
back in 2003, EPA seemed to be rapidly advancing in setting a 
reference dose for perchlorate. I believe that in 2003 they 
were supposed to have a draft reference dose. So we actually 
were going to rely on their work, but then it got delayed so we 
took up our own work.
    Now, the Office of Research and Standards is very 
fortunate. We have 11 staff toxicologists and risk assessors. 
We worked almost full time on perchlorate until 2006, when we 
promulgated our standards. The work also entailed the director 
of our drinking water supply program the Bureau of Waste Site 
Clean-Up staff and the Commissioner's office. Our four regional 
offices were also involved, because we had to go to cities and 
towns to deal with the contamination, find out what the sources 
were, and do clean-ups.
    So it was a very large effort for us to undertake. I do 
think if there were Federal action that it would reduce the 
burden on the States having to do this type of work.
    Senator Klobuchar. Thank you very much. You also said 
something that makes a lot of sense to me. Since we know that 
perchlorate can cause developmental harm to pregnant women and 
children, that it would make some sense to set the standard now 
and refine it later, or do something, because what concerns me 
here is we have some scientific research, but yet nothing is 
happening on the EPA level. It seems to me we should err on the 
side of caution.
    Do you want to respond to that and how you could envision 
this getting done?
    Ms. West. Well, I totally agree with you. I think that 
there is well-known information on the health effects of 
perchlorate. It is based on sound science. There is much 
information to put together to set a drinking water standard. I 
look at this situation, and I say what is missing? Nothing, we 
have the data. We have everything that we need. We have 
protocols for setting drinking water standards. If we follow 
those and take action, I think we have all that we need.
    Senator Klobuchar. Dr. Alexeeff, you talked about how 
California set a standard and there is peer review. Do you feel 
that there is enough national information to move forward?
    Dr. Alexeeff. Yes, of course we do. We are in the process 
now. There has been so much additional information. We are 
coming up on our 5-year cycle for reconsidering perchlorate, 
and seeing if our current standard is reflective of the actual 
data. So we think there was sufficient data when we set our 
standard in, well, both in 2004 for the goal, and then 2007 for 
the official State standard. Since that time, there has just 
been additional information supporting it.
    Senator Klobuchar. Dr. Alexeeff, in your written testimony, 
you talked about pregnant mothers and fetuses and brain 
development. You mentioned that studies have shown that 
children's performance in school can be affected. Have there 
been other effects on children that have been documented?
    Dr. Alexeeff. Well, the actual way that perchlorate causes 
an effect is by blocking iodide from being used to make the 
important hormones for brain development. There is a lot of 
information on the importance of iodide. If we don't allow our 
bodies to utilize the iodide that is there, we won't have 
proper brain development in children. There is more than enough 
data showing that.
    Senator Klobuchar. And this is my last question here. With 
the California standards, you do look at that, or from other 
parts of the Country as well, scientific data?
    Dr. Alexeeff. Well, to a certain extent. We looked at 
certainly all of the health information that was available. We 
are aware of the contamination in various parts of the Country, 
and of course a lot of our drinking water is from the Colorado 
River, which is one of our major concerns because it is 
contaminated with perchlorate as well.
    Senator Klobuchar. OK. Thank you very much.
    Senator Boxer. Thank you, Senator.
    Senator Klobuchar has said that she is going to come back, 
and when I have to leave, she will chair the third panel, so we 
should have a seamless hearing today.
    Senator, thank you so much. You are always such a helpful 
part of this Committee. I thank you very much.
    I ask unanimous consent to enter into the record recent 
studies describing perchlorate exposure to people and its 
impact on human health: statements by Professor Daniel 
Wartenberg and Professor Tom Zoller on TCE and perchlorate; 
newspaper articles describing White House and Federal agencies' 
interfering with the creation of protective TCE and perchlorate 
standards; a letter from EPA's Children's Health Protection 
Advisory Committee; and a scientific article criticizing EPA's 
perchlorate remediation goal as being unprotective. So we will 
put those in the record.
    [The referenced documents were not received t the time of 
print.]
    Senator Boxer. Thank you, panelists. I think you have been 
terrific, very direct, and very helpful.
    If our final panel would please come up.
    Donna Lupardo is an Assemblywoman in the State of New York; 
Gail Charnley, Ph.D., HealthRisk Strategies; David Hoel, Ph.D., 
Professor at the Medical University of South Carolina; and 
Richard Wiles, Executive Director, Environmental Working Group.
    We welcome you all. We are very pleased to have you. I 
invite you to drink the water if you want to.
    So we will start off with Assemblywoman Lupardo from the 
126th Assembly District of New York. Thank you very much, 
Assemblywoman.

 STATEMENT OF DONNA A. LUPARDO, ASSEMBLYWOMAN, 126TH DISTRICT, 
                       STATE OF NEW YORK

    Ms. Lupardo. Thank you, Madam Chair and members of the 
Committee for your commitment to this issue and for allowing me 
to present my remarks on this topic.
    First, let me say that I am not a scientist. I am not an 
epidemiologist. I am simply an advocate for the community that 
I represent in the New York State Assembly. I represent the 
126th District. It includes the city of Binghamton and the 
towns of Union and Vestal. Located in the town of Union is the 
village of Endicott, birthplace of IBM and Endicott-Johnson 
shoes. My remarks today reflect Endicott's long journey into 
the world of TCE contamination and my own journey to find 
answers.
    Prior to my election, I was a member of the Resident Action 
Group of Endicott, along with Congressman Hinchey. The group 
helped raise public awareness about the dangers of vapor 
intrusion and drinking water contamination. Working together, 
the Endicott site was reclassified back in 2003 after it was 
discovered that undergroundwater contamination produced toxic 
vapors into people's homes and businesses.
    I also served as a member of the Stakeholder Planning 
Committee which met regularly with members of ATSDR and our 
State's Department of Health and Environmental Conservation.
    In Endicott, there are over 480 homes spread out over 300 
acres fitted with ventilation systems designed to address 
chemical vapor intrusion because of a large underground plume 
of contamination. These vapors are the legacy of the 
microelectronic industry that once dominated our local economy. 
Fortunately for Endicott residents, there was a responsible 
party available. IBM was in a position to assist with the costs 
of not only the ventilation systems, but with pumping stations, 
monitoring wells, ambient air testing, and an air stripper 
needed to address the contamination of wells that supply 
drinking water to 46,000 residents in the town of Union, 
including my own home in Endwell.
    In August 2005, the New York State Department of Health 
released a Health Statistics Review for the Endicott site that 
documented elevated rates of testicular cancer, kidney cancer, 
and heart birth defects in the Endicott area. The review found 
that these elevated rates were statistically significant, 
meaning that they are unlikely to be due to chance alone. This 
review validated what residents had been talking about for 
years. Unfortunately, their fears only grew.
    I also serve on the Environmental Conservation Committee in 
the New York State Assembly. After conducting several hearings 
around the State, we issued a report in 2006 entitled Vapor 
Intrusion of Toxic Chemicals: An Emerging Public Health 
Concern. One finding is particularly relevant to today's 
hearing.
    We found that the New York State air guideline for TCE of 
5.0 micrograms per cubic meter of air was not based on the most 
protective presumptions supported by science. In developing its 
guidance for TCE, our Department of Health made a number of 
choices that resulted in a less protective standard, including 
the choice not to consider epidemiologic studies used by EPA in 
its 2001 draft assessment, the choice not to use a new and 
stronger epidemiological study as a source of quantitative 
values, and the choice not to consider animal studies which 
show an association between exposure to TCE and testicular 
cancer, lymphoma and lung cancer based on a lack of human 
evidence.
    As a result, TCE guideline is two orders of magnitude 
higher than the most risk-based concentrations for TCE in air 
developed by California, Colorado, New Jersey, and several EPA 
regional offices which range from .016 to 0.2 micrograms per 
cubic meter of air. New York also changed its TCE guidelines in 
2003 in the middle of the IBM clean-up, leaving many homeowners 
confused and frustrated because they were no longer eligible 
for ventilation systems. They went from a 0.22 microgram to 
their current level of 5.0 micrograms per cubic meter of air.
    Our Environmental Conservation Committee strongly 
recommended that our Department of Health revise its current 
indoor air guideline for TCE to reflect the most protective 
assumptions about toxicity and exposure supported by science. 
We believed that in the face of uncertainty regarding the 
threat of harm to human health posed by vapor intrusion, that 
the Department of Health should err on the side of caution and 
adopt a much more conservative approach. Unfortunately, Madam 
Chair, they did not.
    While we are attempting to address this issue legislatively 
in New York State, we desperately need Federal leadership on 
this topic. The Toxic Chemical Exposure Reduction Act would 
finally provide a national primary drinking water regulation 
for TCE and an all important reference concentration of TCE 
vapor that is protective of susceptible populations, along with 
important health advisories. It would put an end to a confusing 
hodgepodge of individual State guidelines and arbitrary 
regulations.
    As you said before, Madam Chair, we don't want to legislate 
this. We are running into resistance trying to legislate it, 
frankly.
    Just a couple of points to wrap up. I am also encouraged 
that the legislation establishes the integrated risk 
information system reference concentration of TCE vapor. I am, 
however, deeply concerned that EPA's new interagency review 
process will actually increase the challenges that they face in 
evaluating and regulating chemicals. The IRIS data base could 
soon become obsolete because of the backlog of ongoing 
assessments. I hope that the TCE assessment does not fall prey 
to policy biases that overshadow good science, as you have said 
many times.
    Senator Boxer. I am going to ask you to finish up.
    Ms. Lupardo. Yes.
    Finally, the last point, I would be remiss if I did not 
briefly mention another related matter. It has to do with the 
OSHA standard. They have set an exposure limit of 100 parts of 
TCE per million part of air for an 8-hour workday, 40-hour 
workweek. Surely a separate investigation of workplace 
exposures is warranted, especially for communities like 
Endicott where many residents were exposed at home and at work.
    Thank you for allowing me to testify. I am deeply grateful 
for your efforts.
    [The prepared statement of Ms. Lupardo follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Boxer. Thank you very much, Assemblywoman Lupardo.
    Dr. Charnley.

            STATEMENT OF GAIL CHARNLEY, PRINCIPAL, 
                     HEALTHRISK STRATEGIES

    Ms. Charnley. Thank you for the opportunity to speak with 
you all today.
    EPA has a well-established process for studying drinking 
water contaminant levels that has been evolving for 30 years 
and has resulted in one of the safest drinking water supplies 
in the world. The Safe Drinking Water Act and its amendments 
reflect the best of Congress' ability to craft statutes that 
are effective and sensible.
    Setting drinking water standards or any other limit on 
human exposure to chemical contaminants requires balancing the 
need to be precautionary and protect public health with the 
need to develop an adequate factual basis to justify 
regulation. In other words, EPA must act to prevent health 
risks from drinking water contaminants, but must also determine 
that regulating contaminants would present a meaningful 
opportunity to reduce health risk.
    There are costs associated both with regulating too soon 
when health risks turn out to be negligible, and with 
regulating too late after health risks have occurred. Finding 
the right balance is what the Safe Drinking Water Act empowers 
EPA to do.
    There are many examples of the challenging process involved 
in trying to set exposure limits for substances in a world of 
evolving science. Perchlorate is a perfect example. Until 
recently, EPA's continued efforts to characterize the hazards 
of perchlorate have been repeatedly thwarted by peer-review 
panels. Perchlorate first made it onto EPA's radar screen in 
1985 when it was found to be a contaminant of Superfund sites 
in California. Toxicity data were sparse and a provisional 
reference dose was adopted by EPA in 1992.
    That provisional dose was replaced by a different 
provisional reference dose in 1995. Peer review of that 
provisional reference dose concluded in 1997 that it was not 
adequately supported by data and proposed a toxicity testing 
strategy. EPA listed it as an unregulated drinking water 
contaminant of potential concern in 1998 and released a draft 
risk assessment with yet another provisional reference dose.
    Another peer review recommended waiting for the results of 
the study that had been recommended in 1997. A revised draft 
risk assessment was released in 2002 that incorporated the new 
data and proposed a fourth provisional reference dose. Peer 
review of that reference dose by the National Academy of 
Sciences resulted in a fifth reference dose, which is the one 
that was adopted in 2005. Of course, reference doses are 
advisory, not regulatory.
    Meanwhile, what about the costs of regulating versus not 
regulating perchlorate? The Safe Drinking Water Act requires 
EPA to establish contaminant levels at which no known or 
anticipated adverse effects on the health of persons occur and 
which allows an adequate margin of safety. So let's ask that 
question: Are known or anticipated adverse effects on health 
occurring? One approach to answering that question is to 
compare EPA's reference dose to the levels we are actually 
exposed to.
    The reference dose is the perchlorate exposure level 
anticipated to be without adverse effects. Based on the data 
from the Centers for Disease Control, we know that the average 
exposure to perchlorate in the U.S. is about one-tenth the 
reference dose and the highest exposures are about one-third 
the reference dose. Based on CDC and FDA data, our exposure is 
10,000 times less than what the National Academy of Sciences 
concluded would be required to produce adverse effects in 
healthy adults.
    The good news is that the American public is apparently not 
being exposed to perchlorate levels that are likely to pose a 
risk to our health. Does that mean we shouldn't regulate 
perchlorate? Not necessarily. Perchlorate occurs naturally in 
the environment, but is also a widespread anthropogenic 
contaminant and probably should be regulated. Fortunately, 
however, there appears to be no imminent public health threat 
that justifies regulating in advance of the science.
    And of course, just because there is no drinking water 
standard at present doesn't mean that precautionary risk 
management measures shouldn't be taken to prevent further 
contamination, but I think it does illustrate how legislation 
compelling EPA to regulate perchlorate would run the risk of 
freezing the standard in place in reaction to politics, not 
risk-based priorities, and essentially constitutes an 
environmental earmark.
    Former EPA Administrator Bill Reilly referred to this 
phenomenon as regulating based on moments of episodic panic in 
reaction to news stories, not science. EPA's landmark 1987 
report, Unfinished Business, concluded that its priorities were 
influenced too much by public opinion and emphasized the 
desirability of setting agency priorities based on risk where 
possible. I believe in setting priorities based on science and 
directing resources where they will have a demonstrable impact 
on public health, and not in environmental earmarks or symbolic 
acts that misdirect limited resources without public health 
benefit.
    Thank you very much. I would like to also add to the record 
a paper that I recently had accepted for publication in a peer-
reviewed journal called Perchlorate: Overview of Risks and 
Regulation.
    [The referenced document was not received at time of 
print.]
    [The prepared statement of Ms. Charnley follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Boxer. Thank you.
    You are right. There is politics in the system. GAO just 
said it is at the risk assessment level that EPA is putting 
politics into the system and shunting the scientists to the 
back. You are right on that point. It is not here. It is there. 
And that is the sad thing.
    We are going to skip over Dr. Hoel for a minute because I 
have so little time. Since I asked Richard Wiles to be here, I 
would like to hear his statement, if you don't mind, sir.
    Go ahead.

 STATEMENT OF RICHARD WILES, EXECUTIVE DIRECTOR, ENVIRONMENTAL 
                         WORKING GROUP

    Mr. Wiles. Thank you very much, Madam Chair. I appreciate 
the opportunity to testify today. I will focus my remarks today 
on perchlorate.
    Perchlorate provides a textbook example of how a corrupted 
health protection system, where polluters, the Pentagon, the 
White House and the EPA have conspired to block health 
protections in order to pad budgets, curry political favor, and 
protect corporate profits.
    With perchlorate, we have reached that rare moment in 
environmental health when there is nothing left to do but act. 
All of the pieces needed to support strong health protections 
are in place. Contamination of food, tap water and breast milk 
is widespread and well documented. We have a clear 
understanding of the dangers to infants, children and women of 
childbearing age.
    A strong body of science ties perchlorate exposures to 
potentially very serious adverse effects on the human 
population, anchored by a study of more than 1,100 women by the 
CDC that links perchlorate levels in the population to 
dangerous low thyroid hormone levels in women of childbearing 
age.
    It is rare that science provides us with such a clear 
picture of a pollutant's harmful effects, which have been 
termed consistent with causality by the CDC. It is even more 
unusual to have this level of evidence and to do nothing. Yet 
this Administration has failed to act.
    Instead of action, we have delay. And worse, as exposed by 
this Committee last week, we have the institutionalization of a 
new delay strategy replete with secret White House reviews of 
science and a shift of public health decision making away from 
agencies with the expertise to agencies responsible for the 
pollution.
    This begs the question why. The answer is the enormous 
magnitude of the liability. Simply put, perchlorate is an 
environmental and public health nightmare of epic proportions 
for the Department of Defense and its contractors, and rather 
than address it head-on and protect the public health, they 
have spent 50 years and millions of dollars trying to avoid it. 
Ninety percent of all perchlorate in the United States was 
manufactured for use by the DOD or NASA. Perchlorate 
contaminates at least 153 public water systems serving about 25 
million people in at least 28 States. At least 61 DOD 
facilities are contaminated with perchlorate, and 35 of those 
are listed on the national priorities list for Superfund site 
designation.
    Hundreds of miles of the Colorado River are also polluted 
with perchlorate. This not only means that the tap water of Las 
Vegas, Phoenix, parts of Los Angeles, and San Diego are laced 
with perchlorate, but it also means that much of the Nation's 
winter vegetable crops are contaminated because they are 
irrigated with perchlorate-polluted water from the Colorado 
River.
    The goal of defense contractors and the Pentagon has been 
to avoid clean-up of their massive perchlorate mess regardless 
of the health consequences to the American people. To date, 
they have been largely successful. It is abundantly clear that 
without congressional intervention, the public will not receive 
the protection that is so clearly justified by the science and 
so obviously necessary given the widespread contamination of 
food, water and people.
    No State health agency that has independently evaluated 
perchlorate supports the EPA's safe contamination level, the 
so-called preliminary remediation goal, PRG, of 24.5 parts per 
billion. California has set a drinking water standard at six 
parts per billion. New Jersey has proposed one at five parts 
per billion. Massachusetts has set a safe level at two parts 
per billion. But most States depend on the EPA.
    EPA's own children's health experts have strongly 
criticized the standard. In March, 2006, the EPA's top 
independent science advisory group, the Children's Health 
Protection Advisory Committee, wrote a strong letter to EPA 
Administrator Stephen Johnson protesting the PRG. In the words 
of the committee, ``The perchlorate PRG does not protect 
infants and children and should be lowered.'' The agency 
ignored the advice.
    Five months later, in September 2006, the CDC published a 
landmark study on the potential health impacts of chronic 
perchlorate exposure. The study of 1,100 women found a 
statistically significant dose-dependent association between 
perchlorate exposure and changes in thyroid hormone levels in 
all women in the study. The study showed convincingly that 
measurable adverse health effects from perchlorate exposure are 
occurring in the American population at levels previously 
thought to be safe and at exposure levels commonly experienced 
by the average person.
    Madam Chair, members of the Committee, the time to protect 
the public from perchlorate is now. We commend Senator Boxer 
for her leadership on the issue and urge this Committee to move 
quickly on S. 150, the Protecting Pregnant Women and Children 
From Perchlorate Act.
    Thank you.
    [The prepared statement of Mr. Wiles follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Boxer. Thank you, sir.
    Now, here is where we are. I am going to turn the gavel 
over to Senator Klobuchar, and Dr. David Hoel has not spoken 
yet. So after that point, it would go to you and then back and 
forth.
    But I just want to say to this panel, all, thank you so 
very much for being here and helping us grapple with these very 
serious matters. Thank you very much.
    Senator Klobuchar.
    [Presiding.] Dr. Hoel.

 STATEMENT OF DAVID G. HOEL, PROFESSOR, MEDICAL UNIVERSITY OF 
                         SOUTH CAROLINA

    Mr. Hoel. Thank you very much. It is an honor to be here.
    I haven't testified now for many years, now that I have 
been at the university, which I should say for 20 years I was 
at the National Institute of Environmental Health Sciences. I 
was the Director of Risk Assessment, and that is the institute 
for the environment within the National Institutes of Health.
    I primarily now work with radiation health effects, but 
have paid some attention to the chemical issues. I was a member 
of the SAB's panel on perchlorate and the SAB's panel on TCE, 
as well as a peer reviewer for the National Academies' report 
on TCE. So I have a little knowledge of what is going on there.
    I would like to talk to you briefly about the process of 
setting levels for carcinogens that are used by IRIS or the EPA 
currently, and how these approaches are different from what is 
going on somewhat in Europe in the World Health Organization 
and so on.
    Now, if we take TCE, which I will talk about, and the 
cancer of TCE, it is primarily kidney cancer, according to the 
Academy, that is the driver among the cancers. Liver cancer is 
equivocal and they dismissed lung cancer and so on. But taking 
the kidney cancer, when EPA did evaluate this and set their 
levels, they considered three studies--a Finnish worker study, 
a German worker study, and a rat study--and came up with three 
levels. The problem is each level disagreed by a factor of 100.
    So the difference between the lowest and the highest was a 
factor of 10,000, which wouldn't give you much confidence in 
attempting to set any sort of level based on this.
    What is the problem here? One is doing things by individual 
cancer sites in individual studies. What can be done is to do 
joint analyses as is done in radiation health effects. The 
World Health Organization and IARC recently came out with a 
study of 400,000 nuclear workers in 15 countries, a joint 
analysis. Joint analyses have also been done at IARC. I 
supported one financially when I was at NIH for phenoxy acid 
herbicides, which is a dioxin-type of exposure. They have done 
other studies where they bring these groups together. NCI has 
done some of this in radiation cancer.
    Short of that, you can do med analyses, but you have to do 
it properly with appropriate doses and bringing in the 
analysis.
    I am running out of time here. I am starting to lecture.
    In any case, there are modern statistical methods and you 
will see these in the radiation business. UNSCEAR, which is the 
United Nations report, will be coming out this summer on the 
new standards for radiation health effects that are used 
worldwide. Some of the new statistical methods are being done 
there using Bayesian techniques and uncertainties and so on.
    Now, of course, my issue is to integrate the scientific 
laboratory understandings with the animal toxicology, with the 
pharmacokinetics and bring that together to come up with some 
intelligent risk estimates in cancer. My recommendations are, 
EPA should use this integrated approach and follow the advise 
of their SAB and the National Academy NRC Committee. It should 
focus on the best estimate of risk with the uncertainty on the 
best estimate of risk, and not just working with upper bounds. 
It should consider the recommendation that the National Academy 
gave them, and that was that the data wasn't sufficiently good 
for the epidemiology and they should use the animal data for 
setting the TCE standards, and use the human data to validate 
what is coming up from the animal studies.
    OK, that is one issue.
    The second recommendation I would make is that there is no 
process for developing methods in risk assessment by the EPA. 
It seems like they should get some quality outside advice. 
Maybe members from the NRC Committee could help them during the 
process of developing their risk estimates, as opposed to 
presenting the risk estimate and then getting criticisms and 
comments on it.
    Finally, there is a basic issue of developing research 
programs. Senator Domenici had one for low-dose radiation 
effects, and that has been going on for a number of years--good 
basic laboratory work through the Office of Science of DOE--and 
similar things should be done for chemicals in our environment.
    I will stop here. Thank you.
    [The prepared statement of Mr. Hoel follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Klobuchar. Thank you. Thank you very much.
    Assemblywoman Lupardo, I understand you represent the 
district where my legislative director has her home town. Is 
that correct? Moira Campion? Thank you for being here.
    You expressed concern during your testimony about EPA's new 
policy on creating the IRIS risk assessments. The Government 
Accountability Office recently testified that the new policy 
would undercut the credibility of these assessments because it 
kept interagency comments secret. Do you think that the people 
that you represent, and from what you have see of this issue, 
that they would want an open scientific process when the 
Federal Government develops the safety level that would be used 
to protect people from TCE?
    Ms. Lupardo. There is no doubt about it, Senator. They are 
desperately in need of solid leadership on this topic. I have 
been trying everything I can at the State level, but there is 
resistance to micro-managing the science. That's why we are 
looking to the EPA for their assistance. It is frustrating to 
think that we can go to all this trouble and perhaps even pass 
this legislation, only to see it mired down in this sort of 
bureaucratic mess.
    Senator Klobuchar. Could you expand a little and explain in 
more detail why it is so important for your constituents to 
install ventilation systems in their homes due to TCE 
contamination?
    Ms. Lupardo. Well, after it was discovered about the 
underground plume of contamination, and the subsequent health 
studies showing elevated cancer and other risks, there was 
really no choice but to have these systems installed so that 
homes could be livable. We have almost 500 homes that are being 
vented.. There is even some evidence that the ambient air in 
that community has been affected, especially when there is 
heavy cloud cover, from all the venting in the community as 
well. So, it is extremely important that we have those systems 
in place. We were lucky. As I said before, we had a responsible 
party. Many communities do not have that luxury.
    Senator Klobuchar. If EPA had updated its safety standard 
for TCE exposure and set a strict new standard that considered 
all types of exposure to TCE, could this have helped your 
constituents?
    Ms. Lupardo. Yes, most definitely.
    Senator Klobuchar. How would it have helped? How would it 
have helped?
    Ms. Lupardo. Their situation would have certainly received 
much more timely attention. Also because of some arbitrary 
decision that was made at our State Health Department where 
they changed the standard mid-stream, they would have been 
protected by the most protective standard supported by science 
instead of some bureaucratic change.
    Senator Klobuchar. Thank you.
    Ms. Charnley, do you agree with Massachusetts' perchlorate 
standard?
    Ms. Charnley. Well, do I agree with the number or the fact 
that they set one?
    Senator Klobuchar. Do you agree with the fact that they 
have a standard? Do you agree with the number? Both questions.
    Ms. Charnley. I think that they are certainly well within 
their prerogative to set a standard. I think that the number is 
too stringent. I say that because one of the things about 
perchlorate is that it acts by the same biological mechanism of 
action as, say, nitrates and thiocynates, which are present 
ubiquitously in our food and water. We are exposed to about 
1,000 times higher doses of those substances every day based on 
the RfD, compared to perchlorate, but we don't seem to be 
worried about those.
    So I think that if you regulate perchlorate, you should 
think about it in the larger context of the other substances 
that we are exposed to that act the same way, the cumulative 
and aggregate risks, and the larger public health context.
    Senator Klobuchar. And so when you commented on the 
standard, I think that you said it didn't have a defensible 
standard basis at the time. Is that right?
    Ms. Charnley. I think that is probably what I must have 
meant, yes.
    Senator Klobuchar. Right. And then the State of 
Massachusetts criticized your comments and pointed out that, 
and this is a quote, ``a panel of independent scientists with 
extensive expertise in the areas of toxicology, risk assessment 
and epidemiology developed the proposed standard.'' They went 
on to say, ``This independent committee concluded that the 
basis of the proposed standard was well supported and 
appropriate.''
    Ms. Charnley. But they didn't consider these other 
possibilities. That is all.
    Senator Klobuchar. Since you commented on the proposed 
standard and you said that it did not have a defensible 
scientific basis, has that changed at all? Do you believe that 
it has a defensible scientific basis?
    Ms. Charnley. No, for the reasons I just stated.
    Senator Klobuchar. OK. Thank you.
    Senator Whitehouse.
    Senator Whitehouse. Thank you, Madam Chairman.
    I have what appears to be a Wall Street Journal article 
talking about the perchlorate issue from 2003. It says the 
following: ``In another step, the White House Office of 
Management and Budget intervened last month to delay further 
regulatory action on perchlorate by referring the health debate 
to the National Academy of Sciences for review. Pending that 
study, which could take an additional 6 to 18 months, the EPA 
ordered its scientists and regulators not to speak about 
perchlorate, said Suzanne Ackerman, an EPA spokeswoman. The gag 
order prevented EPA scientists from commenting or elaborating 
Friday on two lettuce studies which show lettuce available in 
U.S. supermarkets appears to absorb and concentrate perchlorate 
from polluted irrigation water in significant amounts.''
    The reference to the National Academy of Sciences--I am 
just trying to connect the dots here. Mr. Wiles, in your 
testimony, you highlighted a 2003 effort by the White House to 
stack the National Academy of Sciences panel with industry 
consultants. To highlight your testimony, you said that senior 
White House political officials with no scientific expertise 
actively participated in reviewing the scientific charge sent 
to the National Academy of Sciences on perchlorate. You further 
said that White House and Pentagon officials were involved in 
discussions about who should be appointed to the NAS panel. And 
finally, you said that the panel initially included a paid 
industry expert witness and two other paid consultants to the 
perchlorate industry.
    Is the National Academy of Sciences appointment process 
that you describe in your testimony the same one that I 
referenced in The Wall Street Journal article? Do you know?
    Mr. Wiles. I presume that it is, yes.
    Senator Whitehouse. There has just been the one National 
Academy of Sciences review?
    Mr. Wiles. Yes, there is only one report that has been 
done. That is correct.
    Senator Whitehouse. OK.
    I appreciate very much Assemblywoman Lupardo's testimony 
about the substantive problems of exposure in her community and 
how hard she has had to fight to remedy them. But I am also 
concerned about the structural problem in and surrounding EPA 
of whether or not the organization itself has been polluted 
with politics and the extent to which it is breaking up the 
infrastructure that protects the integrity of its own 
processes.
    I was surprised to read the description of the National 
Academy of Sciences' process. I am wondering, Mr. Wiles, if you 
could comment on is that unusual? What does it mean in terms of 
the credibility of the National Academy of Sciences? We have 
had my colleagues here today sort of throw out National Academy 
of Sciences as the Good Housekeeping seal of approval here. If 
it had the National Academy of Sciences imprimatur, it must be 
legitimate. Are we to take that with some skepticism under 
these circumstances? How do you put this into a large context?
    Mr. Wiles. I actually used to work at the National Academy 
of Sciences, at the National Research Council, managing these 
committees. I can say from experience that the influence of 
politics and that vested interests are having on the process 
now I think is unprecedented.
    What we cited in our testimony was an investigation that 
looked at public records from the White House that showed clear 
intervention in the process of selecting this committee by non-
scientists within the White House. You had initially three 
industry consultants. One was actually someone paid, who made a 
living as an expert witness in litigation. That person was 
ultimately removed.
    But what happens when you have industry consultants on 
these panels that have to reach a consensus finding is that 
finding is diluted in favor of the industry's interests, which 
typically are financial as opposed to public health. So it is a 
very serious problem, but that is just the corruption of the 
NAS process. The influence of industry interests on the process 
is just a small part of the overall corruption of science that 
we have seen in this Administration that I think was well 
documented last week in a hearing that was held before this 
Committee.
    We have seen unprecedented levels of industry influence on 
every scientific panel and committee from committees of the 
National Institutes of Health, all the way through to 
committees at EPA that are all designed to--they are the first 
line of defense that the American public has against chemical 
pollution in the environment, and they have been in many 
respects taken over by the polluting industry under this 
Administration.
    Senator Whitehouse. Well, my time has expired, and I will 
end here, but it does remind me of the story about the two 
folks who are arguing over the merits of a particular debate. 
One said to the other, you know, you can have your own opinion, 
but you don't get to have your own facts. I think we are a 
little bit that way. You can have your own opinion. You can 
have your own policy outcome, but you shouldn't get to have 
your own science. That should be neutral.
    I appreciate it. Thank you, Chairman.
    Senator Klobuchar. Senator Barrasso.
    Senator Barrasso. Thank you very much, Madam Chairman.
    Dr. Hoel, if I could, you made a reference in your 
testimony that this bill would compel an analysis within 180 
days. From a scientific standpoint, is that something that is 
reasonable, to put a certain number of days limit? I think you 
had some concerns about that.
    Mr. Hoel. The reason I said I thought 180 days was a very 
short period was that the recommendations I was making about 
how to do a more scientifically credible job in this risk 
assessment process or carcinogens, EPA is going to have to do 
something a little different. I also suggested that they try to 
bring in some peer-reviewing during the process--advice from 
outside scientists and so on--so they would come up with a 
credible product.
    Now, if you were to do that, which would be different from 
the way EPA has done things in the past, my guess is they could 
not pull it together in 180 days. You certainly probably 
wouldn't be able to get the quality advisors brought in 
considering how long it takes to do Academy of Science 
committees and things of that sort.
    Senator Barrasso. Do you have any estimate on what the 
right time figure would be if you had to insert a time figure?
    Mr. Hoel. I really don't know. I was just sort of struck 
that if I had to arrange this from scratch with these changes, 
with 180 days you might have to cut some corners 
scientifically.
    Senator Barrasso. In your opinion, is there an immediate 
health risk that makes this bill necessary? For TCE?
    Mr. Hoel. No. I think that if you look at the epidemiology, 
as the Academy had looked at, they talk about kidney cancer is 
the concern. They have calculated very low risk levels for TCE 
based on the cancer studies. But the question is, these results 
are coming out of Germany and there are some very high doses. 
Some of the workers got a continual dose of about 100 ppm of 
TCE in their work, with levels up to 400 to 500 ppm. The study 
that they did use, the top doses were I think 1,000 ppm. So 
there is a lot of uncertainty there, but these are very high 
doses, and they in fact suggest they try to find some studies 
where you might have some lower doses that would intersect with 
that.
    There have been other studies, other epidemiological 
studies, say the one out of Denmark for TCE workers where they 
measured TCE in the workers. They found no increase in kidney 
cancer. So it is kind of mixed.
    Senator Barrasso. Dr. Charnley, if I could, you said in 
your testimony that legislation compelling the EPA to regulate 
perchlorate would freeze a standard in place in reaction to 
politics, not really risk-based priorities, and essentially 
constitutes an environmental earmark. Are you saying that such 
legislation if passed would basically be politics trumping 
science? Is that what I am hearing?
    Ms. Charnley. Well, I think that the priority-setting 
process that is in place courtesy of the Safe Drinking Water 
Act is appropriate. I think that there is no imminent public 
health threat that means we should regulate tomorrow. I think 
we probably should regulate, yes. But as long as there is still 
some discussion about relative source contributions and various 
other issues underway, I think that process should be 
completed.
    Senator Barrasso. When you talked about the average 
exposure in the United States to perchlorate being about one-
tenth of EPA's reference dose, we are not talking about really 
protecting the average American? Or are we just talking about 
pregnant women, where the protection is needed? What should we 
do there?
    Ms. Charnley. Yes. It is the pregnant women and the 
developing fetus who are the sensitive sub-populations. I think 
that any regulation of perchlorate should take into account 
children's differences in exposure. There is no question about 
that. But I think that the studies of pregnant women have not 
found any impacts of perchlorate exposure on either their 
hormone levels or on those of their offspring. There are quite 
a number of recent studies that have looked at that, and I 
think should continue to look at that, of course. But I am not 
convinced that there is an imminent public health threat.
    Senator Barrasso. Thank you.
    Madam Chairman, I think my time has expired. Thank you very 
much.
    Senator Klobuchar. Assemblywoman Lupardo, I was just 
talking to staff and I read some of the earlier information for 
this hearing about how the GAO is in fact very critical about 
the delay that is going on with EPA and how much it has made it 
very difficult for local units of government and States to deal 
with this.
    Could you talk about the impact of waiting for too long in 
terms of the EPA acting, and what you have had to do as a 
result of that?
    Ms. Lupardo. We have been really working around the edges 
of this. We have done the best we can to protect the 
individuals, the hundreds and hundreds of families and 
individuals in our community, waiting for the Federal 
Government to come to our rescue and aid, and having our own 
Health Department resist us at every turn, to provide a more 
restrictive standard.
    It turns out, and I am looking at the GAO highlights 
summary as well, that a new IRIS process is being put in place 
that is going to delay this even further, I just don't even 
know how I am going to go back and explain this to my 
constituents. I can appreciate what you were saying before 
about the 180 days. That may be too short of a timeframe 
perhaps, but we can't use this delaying tactic, it would seem, 
to further put my constituents at risk.
    Senator Klobuchar. Thank you.
    Mr. Wiles, all the bills do is to require the EPA to use 
the best available science. Is that right?
    Mr. Wiles. That is correct.
    Senator Klobuchar. And we have National Academy of Science 
reports on both TCE and perchlorate. Aren't we at risk of just 
reviewing this to death at some point?
    Mr. Wiles. We are, not to mention that we have the CDC 
study of 1,100 women which I think is very unusual when you 
have the CDC with such a large study of exposure and adverse 
effects measured in the population just from ambient exposure, 
exposures that occur every day.
    And then under questioning from Republicans in the House on 
the Energy and Commerce Committee, the CDC was very clear that 
they feel that they do not need further research to support 
their finding, and that the finding is consistent with 
causality, which is about as strong a finding as you are every 
going to get.
    So failing to act now with such strong evidence of exposure 
and harm is really unprecedented and completely unwarranted.
    Senator Klobuchar. How would you describe, Mr. Wiles, the 
extent of people's exposure to perchlorate in the United 
States, and in particular the exposure of infants and children?
    Mr. Wiles. Well, according to the CDC, it is ubiquitous. In 
other words, everyone is exposed. I think what we heard today 
from earlier witnesses and what the CDC research has shown is 
that women of childbearing age are potentially at risk, and 
their developing babies are if they were to get pregnant, due 
to exposures that the moms have. And then breast milk is also 
very highly contaminated, phenomenally highly contaminated 
based on what earlier witnesses said.
    So we have a clear danger to the public health from a 
compound that we know how it acts. It is not debated that 
perchlorate is toxic to the thyroid, that it interferes with 
normal thyroid function. So there literally is nothing left to 
do but act, and that is what this Administration does not want 
to do.
    Senator Klobuchar. Why do you think it has taken EPA so 
long to create a perchlorate drinking water standard?
    Mr. Wiles. Well, the pressure has been clearly coming from 
the Department of Defense, the Air Force, and defense 
contractors. That goes back as early as 1962 when the first 
group was formed to lobby, if you will, to pressure regulators 
into not acting to clean up groundwater supplies beginning in 
the 1960's. So there are at least four, if not five, decades of 
work on the part of DOD and contractors to avoid regulation and 
it continues to this day.
    The difference with this Administration is that this 
attitude of not protecting the public health is extended all 
the way to the EPA now, who has adopted the Defense Department 
line and the Lockheed Martin line that we don't need to act.
    Senator Klobuchar. Last question, Mr. Wiles. Do you support 
the bill that Senator Clinton and others have introduced to 
require the EPA to use available science to create drinking 
water standards and publicly available data for perchlorate and 
to revise or create Federal standards for TCE, also using 
currently available data?
    Mr. Wiles. Absolutely. We support both bills, and we do 
believe that action by the Congress is clearly necessary to 
move this issue forward and to protect the public health.
    Senator Klobuchar. Thank you very much.
    Mr. Wiles. Thank you.
    Senator Klobuchar. OK. Very good.
    I just want to thank our witnesses for coming. I would just 
point out that the GAO report is worth mentioning here in terms 
of their criticism of what has gone on here in terms of the 
delay. This is another Government agency criticizing another 
Government agency that we have waited for too long. As the 
testimony of Assemblywoman Lupardo shows, this is putting a 
great burden on local governments and State governments in a 
patchwork manner to deal with this.
    The best thing that we could, as a Country, would be if the 
EPA acted in this area. I believe I am speaking on behalf of a 
number, not all, but a number of the members of this Committee. 
We hope that this hearing will push this, and if that doesn't 
work, Congress, as we said, is going to have to move forward 
with our legislation.
    Thank you very much. This hearing is adjourned.
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
  

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
